<html>
<title> - EXAMINING THE ADMINISTRATION'S GOVERNMENT-WIDE REORGANIZATION PLAN</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
   EXAMINING THE ADMINISTRATION'S GOVERNMENT-WIDE REORGANIZATION PLAN

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 27, 2018

                               __________

                           Serial No. 115-88

                               __________

Printed for the use of the Committee on Oversight and Government Reform






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        Available via the World Wide Web: http://www.govinfo.gov
                       http://oversight.house.gov
                       
                       
                       
                          _________ 

              U.S. GOVERNMENT PUBLISHING OFFICE
                   
 31-276 PDF            WASHINGTON : 2018                            
                       
                       
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Virginia Foxx, North Carolina        Jim Cooper, Tennessee
Thomas Massie, Kentucky              Gerald E. Connolly, Virginia
Mark Meadows, North Carolina         Robin L. Kelly, Illinois
Ron DeSantis, Florida                Brenda L. Lawrence, Michigan
Dennis A. Ross, Florida              Bonnie Watson Coleman, New Jersey
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Jimmy Gomez, Maryland
Steve Russell, Oklahoma              Peter Welch, Vermont
Glenn Grothman, Wisconsin            Matt Cartwright, Pennsylvania
Will Hurd, Texas                     Mark DeSaulnier, California
Gary J. Palmer, Alabama              Stacey E. Plaskett, Virgin Islands
James Comer, Kentucky                John P. Sarbanes, Maryland
Paul Mitchell, Michigan
Greg Gianforte, Montana
Vacancy

                     Sheria Clarke, Staff Director
                    William McKenna, General Counsel
                 Kevin Ortiz, Professional Staff Member
     Julie Dunne, Government Operations Subcommittee Staff Director
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 27, 2018....................................     1

                               WITNESSES

The Honorable Margaret Weichert, Deputy Director for Management, 
  U.S. Office of Management and Budget
    Oral Statement...............................................     5
    Written Statement............................................     7

                                APPENDIX

American Federation of Government Employees Statement for the 
  Record submitted by Mr. Cummings...............................    48
The National Treasury Employees Union Statement for the Record 
  submitted by Mr. Cummings......................................    52
National Active and Retired Federal Employees Association 
  submitted by Mr. Cummings......................................    62
``Two Years Not Ten Years Redesigning Infrastructure Approvals,'' 
  Common Good, submitted by Mr. Palmer can be accessed at: 
  https://www.commongood.org/wp-content/uploads/2017/07/
  2YearsNotl0Years.pdf

``Assessing the Costs Attributed to Project Delays'' submitted by 
  Mr. Palmer can be accessed at: https://ftp.dot.state.tx.us/pub/
  txdot-info/fed/project-delay-summary.pdf.......................    65
2018-06-20 New York Times ``How One Conservative Think Tank Is 
  Stocking Trump's Government'' submitted by Ms. Plaskett........    66
Response from Ms. Weichert, Office of Management and Budget, to 
  Questions for the Record.......................................    83


   EXAMINING THE ADMINISTRATION'S GOVERNMENT-WIDE REORGANIZATION PLAN

                              ----------                              


                        Wednesday, June 27, 2018

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10:00 a.m., in Room 
2154, Rayburn House Office Building, Hon. Mark Meadows 
presiding.
    Present: Representatives Duncan, Issa, Amash, Foxx, 
Meadows, Walker, Blum, Hice, Russell, Grothman, Hurd, Palmer, 
Comer, Mitchell, Cummings, Norton, Clay, Lynch, Connolly, 
Kelly, Lawrence, Watson Coleman, Raskin, Welch, DeSaulnier, 
Plaskett, and Sarbanes.
    Also Present: Representative Scott.
    Mr. Meadows. The Committee on Oversight and Government 
Reform will come to order. Without objection, the presiding 
member is authorized to declare a recess at any time.
    The modern Federal Government is a result of layers upon 
layers of legislative executive and judicial actions throughout 
our Nation's history. The inertia of bureaucracy created by the 
process allows it to persist year after year after year. And as 
our former President said, there is every reason why our 
executive governmental machinery should be at least well 
planned, economical, and efficient as the best machinery of the 
great business organizations which, at present, is not the 
case. That was President Theodore Roosevelt in 1905, but those 
words are still true today as they were just as true a century 
ago.
    Decisions that may have made sense in the past may not work 
in the context of a modern 21st century society. And as we 
progress as a Nation, it is incumbent upon elected officials to 
reevaluate how to best deliver on the services to the American 
people and the services indeed that they deserve.
    Take pizza for example. If a company wishes to sell cheese 
pizza, it has to meet with the Food and Drug Administration 
requirements. However, if they add pepperoni to that pizza, the 
company must now adhere to rules issued by the Food Safety 
Inspection Services of the Department of Agriculture. So you 
have one pizza going through one agency, another pizza with 
pepperoni going through a different agency.
    Or let's look at imported seafood, which accounts for 
nearly 90 percent of consumed seafood in the United States. In 
September of 2017, a Government Accountability Office audit 
found that the FDA and the FSIS were not fully coordinating on 
the drug residue testing methods. GAO also found that two 
agencies were using different standards for testing drug 
residue to determine if seafood was safe. Now, the lack of 
coordination and aligned standards only harms businesses 
seeking to comply with the law. But also, it harms consumers 
and puts their health at risk.
    The complex and ever growing demands of our citizens 
require an efficient and effective Federal Government. And as 
these examples suggest, the current construct fails to meet 
this requirement.
    The plan to reorganize the executive branch put forward by 
President Trump seeks to help us meet this--the new needs or I 
might say the existing needs of our constituents.
    In March 2017, President Trump issued an executive order 
calling on the Office of Management and Budget to create a 
comprehensive reorganization plan that consolidates or 
eliminates redundant and ineffective programs and agencies. And 
the plan which was released last Thursday seeks to deliver an--
to the executive branch what they dictated to be wholly meeting 
the Federal Government's important mission of service and 
stewardship objectives.
    The plan suggests bold reforms, such as the elevation of 
the Office of Personnel Management into the executive branch--I 
mean, the Executive Office of the President, the merger of 
Departments of Labor and Education, and the consolidation of 
welfare programs and a revamped Department of Health and Human 
Services.
    This plan is a roadmap designed to jump start a 
conversation about how to best deliver these services to the 
American people, the services they expect. And we're pleased to 
have the OMB deputy director of management, Margaret Weichert, 
here today to present that roadmap to the committee and to the 
American public.
    Accomplishing the goals in this plan will not be easy, and 
it will require a hand-in-hand work with Congress, the 
administration, and stakeholders to fully recognize and realize 
the potential transformation that is envisioned here.
    I want to thank you, Deputy Director Weichert, for being 
here, and I look forward to our conversation.
    With that, I recognize my good friend, the ranking member, 
the gentleman from Maryland, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. And I'm 
glad that we are having this hearing today.
    I definitely have numerous questions for the witness about 
the Trump administration's reorganization plan. For example, I 
want to know why is it that there is no analysis of the cost 
and benefits of this proposal? Why is there no assessment of 
its impact on the Federal budget? Why is there no information 
at all about how it will affect Federal workers? And why is it 
there's no list of actions that require congressional approval? 
These are all basic prerequisites for a serious plan, and they 
are completely missing from this one.
    Last week, my staff asked the Office of Management and 
Budget for these assessments, and they were told that they did 
not exist. The Trump administration now claims that it wants to 
use this proposal, and I quote, ``to build productive 
bipartisan dialog,'' end of quote. If that were a serious 
claim, the Trump administration would have worked with us over 
the past year, instead of keeping their work secret, despite 
multiple requests from members of this committee.
    Take just one example in our committee's jurisdiction, the 
Postal Service. We have a bipartisan bill--Mr. Chairman, you 
have worked very hard on that bill with us--that we passed out 
of our committee unanimously, that would help the Postal 
Service maintain a more solid financial footing forward. 
Instead of working with us, President Trump unilaterally 
appointed a task force to come up with its own ideas about the 
Postal Service. Then without even waiting for its own task 
force's results, President Trump rushed in this proposal to 
eliminate the Postal Service entirely. Ladies and gentlemen, it 
makes no sense.
    Like so many other ideas that have come out of this White 
House, President Trump's proposal to privatize the Postal 
Service is disorganized, unilateral, nonsensical and, frankly, 
incompetent. I do not think this plan is a serious one. What I 
do think is extremely serious is the urgent plight of thousands 
of children who the Trump administration separated from their 
parents with no discernible plan to reunite them. None, zero.
    Tomorrow, the Judiciary Committee is holding a so-called, 
quote, ``emergency hearing,'' end of quote, on Hillary 
Clinton's emails. They're hauling up Rod Rosenstein and 
Christopher Wray to demand more answers. But the real emergency 
is these children, these babies and toddlers, whom the 
government has unilaterally and literally torn from the arms of 
their parents, some of them a few months old.
    To my Republican colleagues, last week, I asked a very 
simple question, but a very profound one. I simply asked for 
your help. Call a hearing, ask DHS and HHS and DOJ to come up 
here and testify about what the plan is to reunite these 
children and these kids with their families. Light a fire up 
under them to get them moving. If we can have an emergency 
hearing on Hillary Clinton, we certainly can have an emergency 
hearing on these children.
    And so I ask the question, I asked for help. But guess 
what? I got no response. Zilch. Didn't even get a letter, not a 
phone call, nothing. And so the children continue to suffer. 
You've seen them locked up in cages. I said it before and I'll 
say it again: This is our country. It is a great country, but 
we will be judged by the way we treat our citizens and 
particularly our children.
    So on Friday, we had to send our own letter just from the 
Democrats, dated June 22, to the Attorney General Sessions, DHS 
Secretary Nielsen, and HHS Secretary Azar. We asked for basic 
information on each child that was separated from his or her 
parents so we could monitor and promote efforts to unify these 
families. These are documents they should have at their 
fingertips, and we asked for them by tomorrow. Apparently 
however, we cannot have these documents, for some reason.
    And as we all know, the Democrats are in the minority. And 
since no Republican joined our request, the agencies will not 
produce the documents. We hear a lot of talk from the agency 
heads, but no documents. And so now I'm pleading, I'm pleading 
with you once again. Anyone on this panel, anyone, is there one 
Republican who will join us, just one, to save and help these 
families reunite? Anyone? Radio silence. Is there one 
Republican who will sign his or her name to this letter 
requesting the basic facts and the documents about these 
children?
    I will yield to any Republican member who will join us in 
this effort. I ask one last time, is there one----
    Mr. Issa. Would the gentleman yield?
    Mr. Cummings. Yes.
    Mr. Issa. Would you give the 30 days that the San Diego 
court has ordered for full reunification as part of the letter 
since the President's executive order now has been codified by 
a Federal judge?
    Mr. Cummings. No, no.
    Mr. Issa. So you wouldn't give the President and the 
Federal court system the 30 days to unify them?
    Mr. Cummings. I'm just--taking back my time. I'll let you 
see the letter, and if you want to sign on to the letter----
    Mr. Issa. I look forward to seeing it.
    Mr. Cummings. Yeah. We need help. These children need help. 
We wouldn't do this to our own children. We would not allow 
people to split up our families. As a matter of fact, if they 
tried to split up our families, we would go off.
    And so as I close, Mr. Chairman----
    Mr. Meadows. If the gentleman will yield.
    If you'll give me a copy of the letter, I'll get back to 
you within 24 hours. You know that I have a bipartisan history 
of demanding documents, regardless of their political, I 
guess----
    Mr. Cummings. Yes.
    Mr. Meadows. --relevance. And if you'll give me a copy of 
the letter, we'll get back to you within 24 hours.
    Mr. Cummings. Thank you very much. Thank you very much, Mr. 
Chairman.
    Is there--so--and I want to thank you, Mr. Chairman, for 
that. It means a lot to me.
    And so we move forward. But I say to my colleagues, you can 
have your emergency hearing on Hillary Clinton's emails, but 
can we also have one on these kids who desperately need our 
help? Children are separated from their parents by our own 
government. Isn't that an emergency? Another week has gone by 
and there's still no functioning plan to reunite these 
families. Isn't that an emergency?
    The harm and the trauma our own government is inflicting on 
these children is continuing and compounding every single day. 
There's no question that this is an emergency. I've often said 
that what you do to a child, and if it's negative, it probably 
lasts them for the rest of their lives. And it is not the deed, 
it's the memory that haunts them and harm them. And so we all 
know in our hearts that we need to address this, and we need to 
start treating it like the emergency that it is.
    And, Mr. Chairman, I want to thank you for what you just 
said. This is a bipartisan issue, it should be. And we look 
forward to your response.
    With that, I yield back.
    Mr. Meadows. I thank the gentleman for his opening remarks.
    I'm pleased to introduce our witness, the Honorable 
Margaret Weichert, deputy director for management at the Office 
of Management and Budget. Welcome.
    And pursuant to committee rules, we'd ask that you would 
stand before you testify and please raise your right hand.
    Do you solemnly swear or affirm that the testimony you're 
about to give will be the truth, the whole truth, and nothing 
but the truth, so help you God.
    Ms. Weichert. I do.
    Mr. Meadows. Thank you. You may be seated.
    And please let the record reflect that the witness answered 
in the affirmative.
    Obviously, in order to allow time for questions and 
answers, your oral testimony will be limited to 5 minutes. This 
is not your first rodeo, you get that. And the clock's there in 
front of you. And yet at the same time, your entire written 
statement will be made part of the record.
    So you're now recognized for 5 minutes.

                       WITNESS STATEMENT

                 STATEMENT OF MARGARET WEICHERT

    Ms. Weichert. Thank you.
    Chairman Meadows, Ranking Member Cummings, and members of 
the committee, thank you for the opportunity to discuss the 
plan to reshape government in the 21st century.
    Healthy organizations change and adapt to customer needs 
and the demands of the free market. The U.S. Government should 
be no different. Our Founders conceived a durable governing 
framework and Constitution to serve the American people, but 
our current organizational model has not kept pace with 21st 
century needs.
    Despite dramatic changes in technology, our Federal 
Government still operates much like it did 50 years ago. And it 
isn't well organized to provide the service and flexibility 
that Americans expect in the digital age. I cringe when I hear 
how inefficient it is to interact with Federal agencies.
    Let me give you some examples. Jobseekers have to navigate 
more than 40 workforce development programs across 15 agencies. 
Poultry companies deal with multiple offices and time-consuming 
paperwork because chickens and eggs are regulated by different 
agencies. Environmental conservation for fish in our rivers are 
affected by regulations from four different organizations. And 
basic infrastructure development and maintenance projects for 
roads and ports face organizational complexity that can delay 
investments by years. This is not how Americans want government 
to operate.
    As a result, in March 2017, the President issued Executive 
Order 13781 directing the Office of Management and Budget to 
work with key stakeholders and produce a comprehensive 
government reform plan to better meet the needs of the American 
people. This plan is part of a broader set of management 
improvement initiatives designed to balance executive branch 
mission, service, and stewardship responsibilities, while 
reducing duplication, risk, and inefficiency.
    Concrete efforts to drive change were released in the 
President's Management Agenda in March 2018. The PMA is the 
administration's blueprint for aligning government IT, data, 
and the Federal workforce in the 21st century. Reorganization 
proposals build on this blueprint and are among the various 
tools we are using to modernize government.
    Over the past year, OMB reviewed top-down and bottom-up 
reform and reorganization proposals from Federal agencies, the 
public, academics, interest groups, and Federal employees. The 
reform plan was also informed by years of research and 
recommendations from the Government Accountability Office, GAO, 
including the GAO high-risk lists and reports on government 
duplication and fragmentation. After synthesizing this 
information, OMB developed the recommendations included in the 
reform and reorganization plan released by the President in 
last week's Cabinet meeting.
    Given the seriousness of this task and its potential for 
major impact to government missions and to our workforce, the 
OMB team worked with executive branch agencies on reform plan 
deliberation and predecisional analysis in phases. The initial 
phase covered data collection where agency input and 100,000 
public comments were collected between June and December of 
last year.
    The second phase focused on opportunities to reduce 
duplication and fragmentation and improve cross-agency 
efficiency. This worked through on GAO reports on risk, 
duplication, and inefficiency, as well as literature review 
from think tanks and good government groups, which is included 
on page 128 of the proposal. And that phase started in January 
2018.
    The final phase incorporated President's Management Agenda 
priorities that were used to prioritize proposals where 
mission, service, or stewardship might be improved via 
reorganization or restructuring. This final phase began after 
the PMA release in March.
    A transformation of this scope will take time to implement. 
Some changes can be applied directly within agencies, while 
other more complex proposals may require action by the 
President or Congress.
    Now that the plan has been issued, we are eager to engage 
in a constructive conversation with Congress on how to move 
forward together. We know that Congress shares our interest in 
driving positive reform. This committee in particular has 
dedicated considerable effort over the years to exposing 
duplication and inefficiency in government and exploring ways 
to improve government operations.
    At times of great change, commitment to government of the 
people, by the people, and for the people is critical. As the 
U.S. faces the challenge of serving the diverse needs of our 
growing country, I look forward to working with all of you to 
ensure that the executive branch is well-organized to deal with 
21st century realities.
    Thank you again for inviting me here today. I look forward 
to your questions.
    [Prepared statement of Ms. Weichert follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Mr. Foxx. [Presiding.] Thank you very much, Ms. Weichert, 
for your statements, and we appreciate your being here.
    I will in 1 second introduce members to ask their 
questions. But I want to a brief followup on what you have 
said. As I said when the reorganization was announced, the 
Federal Government is long overdue for a serious overhaul. The 
proposal to merge the Departments of Education and Labor is 
recognition of the clear relationship between education policy 
at every level and the needs of the growing American workforce. 
At the Committee on Education and Workforce, we make these 
connections in everything we do. I appreciate the 
administration's support for this idea, and I look forward to 
working with the administration on the proposal and how the new 
department could function to best serve American students, 
workers, job creators, and families.
    I now would like to recognize Mr. Issa for 5 minutes of 
questions.
    Mr. Issa. Thank you, Madam Chair.
    I'm delighted to see a real proposal. The last 
administration had asked us for authority, but never gave us 
any proposal. But having said that, I'd like to delve into a 
piece of history for a moment.
    As you know, this committee in the past has held hearings 
to review the history of how you do a reorganization. And the 
gold standard appears to--try to make sure I can see you--the 
gold standard seems to be the history of the Hoover Commission. 
In that situation, in addition to many, many ideas that had 
bubbled up and were obviously on the forefront of the executive 
branch's mind, what they did was they did a lot of what you've 
just done, but they did it in a way in which Congress had to 
buy in along the way, along with the interest groups, and that 
allowed a commission that, through multiple Presidencies, 
continued to allow an evolution.
    As you look at the short term and authority, why is it that 
we're not seeing, if you will, a sustaining body that would put 
this out in the public and at the same time bring Congress on 
a, if you will, a permanent basis into the process, rather than 
an approval and then see you later?
    Ms. Weichert. So----
    Mr. Issa. And I mean no disrespect with the approval but 
see you later, but we do know how that works.
    Ms. Weichert. So I appreciate the question. And we too 
looked at the history of reform in government and in the 
private sector and looked at various experiences, including 
experiences in the recent past where proposals basically got 
winnowed away in the public deliberation process before there 
was a rich and full dialogue. So much about the process that we 
engaged in was designed to ensure that we had some really meaty 
proposals to put out for public debate before engaging into 
more implementation oriented part of the change, which we know 
needs to happen in public.
    Mr. Issa. I appreciate that. I guess I'll go back and sort 
of restate the question, if you will. In the corporate world--
and you mentioned that in the corporate world generally there 
are two kinds of reorganizations. There are ones that are 
evolutionary, for example, pulling up to the corporate 
headquarters, the IT functions as a service, something that's 
long overdue in the Federal Government. And this committee has 
seen, although we did empower CIOs, we still have too many of 
them based on the legislation. But, you know, that's an example 
of one that is very limited. And the execution is everything, 
while the lines of code that it would take to authorize it are 
relatively few. And then you have things more like, let's say, 
General Electric, where they find that the organization itself 
is in doubt and they start with serious combinations, 
reductions, sales, et cetera.
    You seem to be blending the two. In other words, the IT 
function broadly being under a consolidated authority, 
professionalizing it, and taking it out of, if you will, little 
fiefdoms that sometimes go all the way down to an agency of 
only a few million dollars of spending, is a shortcut that we 
could certainly understand you're bringing us a single proposal 
for. And I have to be honest, I didn't see that part of the 
proposal. But then the other side of it, which is recognizing 
that too many people report directly to the President, or to be 
more cynical, too many people try to get through the chief of 
staff to the President.
    What are you going to do about that in this proposal? 
Because nothing I see here really says we have too many Cabinet 
positions and those Cabinet positions cannot possibly get the 
ear of the President or direct access to decisionmakers in some 
sort of a corollary to the private sector.
    Ms. Weichert. So thanks for the question. You're exactly 
right that we did blend both what we learned from public sector 
reform initiatives in the past as well as in the private 
sector. And what really drove everything that we did here is 
the same thing that drove the work we did in the President's 
Management Agenda, which is looking at the intersection between 
mission, delivery, service to the American people, and 
stewardship of taxpayer resources. And it was where that sort 
of trio of things came into either conflict or in confluence 
that we really focused our activity. And I think the key thing 
to reiterate is there are many tools and many approaches. We 
tried----
    Mr. Issa. And lastly, in the few remaining seconds, if we 
were to have the authority to approve it here today, what would 
be your timeline which--in other words, how many years would 
you really envision to execute even the portions that you've 
already laid out?
    Ms. Weichert. I'd say 3 to 5 years.
    Mr. Issa. Thank you. Thank you, Madam Chair.
    Mr. Foxx. Thank you, Mr. Issa.
    Mrs. Watson Coleman, you're recognized for 5 minutes.
    Mrs. Watson Coleman. Thank you, Madam Chairman. Thank you 
very much. And thank you very much for being here today and 
sharing this information with us.
    Ms. Weichert, I've got a lot of questions about this 
reorganization plan. I'm really concerned about the impact of 
the proposals as it relates to active and retired employees and 
moving the function out of OPM and eliminating OPM. At some 
point, I'm going to need to have a discussion about how that 
happens and our role in that. I'm very concerned about 
protecting careerist employees. And I'm fearful that if that 
function in any way, shape, or form gets into the White House, 
we've got a real problem, given the White House's disdain for 
the workforce in the first place.
    But I am the ranking member of the Homeland Security 
Subcommittee on Transportation and Protective Security. I have 
a major concern and it has to do with the vulnerabilities that 
are facing our surface transportation systems. The threat to 
public transportation systems has fully grown in recent years, 
culminating in an attempt of terrorist attack against New York 
City subway system just this last December. Unfortunately, the 
administration has responded to this growing threat by 
proposing drastic cuts to surface transportation security 
programs. And now you propose that Federal security 
responsibilities for these vulnerable systems be transferred 
back to the Department of Transportation, which failed to 
protect transportation systems on 9/11 and no longer maintains 
security expertise. You seem to envision an ever shrinking 
Federal role in protecting public transit, despite how critical 
these systems are to our national security.
    What responsibility do you believe the Federal Government 
should have in protecting surface transportation systems?
    Ms. Weichert. So thank you for the question, and there are 
a number of things in there. I'll start by saying that 
definitively and from a business standpoint on the first set of 
issues you raised around people in the workforce, the pragmatic 
and practical reality is any change that delivers on mission, 
service, and stewardship for the American people has to be 
delivered by the workforce we have. And we do not disdain that 
workforce; we applaud the work that that workforce does. And so 
I do look forward to engaging on that conversation.
    As it relates to transportation, I'm not familiar with all 
of the back and forth components that happened prior to the 
latest proposal. What I can say was the goal of many of the 
proposals in here, including the transportation proposals, was 
to reduce fragmentation, duplication, and areas where the 
government was not having an integrated approach to serious 
issues as the ones you're mentioning.
    Mrs. Watson Coleman. So am I to assume that TSA weighed in 
on this discussion and agreed with the transfer of these 
functions into the Department of Transportation, and that the 
Department of Transportation weighed into this discussion and 
agreed that it would be capable of handling this additional 
responsibility when it hasn't had a like responsibility since 
after the transfers after 9/11?
    Ms. Weichert. So the Department of Transportation 
absolutely weighed in on the proposals. And basically, the 
conversation looked at what would need to be done to align from 
an organizational standpoint to reduce communication and 
efficiencies, to reduce overlapping resource or fragmentation, 
diffuse resources so that we could put the bulk of the money 
towards the mission.
    Mrs. Watson Coleman. Well, part of the problem then is that 
with regard to surface transportation issues, the 
administration has consistently proposed to cut those things. 
And now it's to move them into a department that doesn't seem 
to have as its primary function that issue. And you didn't say 
whether or not TSA had any input in this, you simply said that 
the DOT did.
    I'm wondering, is there a thought that the creation of the 
Department of Homeland Security was not a good idea?
    Ms. Weichert. There's no thought that that was not a good 
idea.
    Mrs. Watson Coleman. Do you believe that State and local 
authorities have the necessary resources to protect public 
transportation systems without significant government--Federal 
Government support?
    Ms. Weichert. So the issue in the proposal was really about 
coordination of effort, and so it's not the only tool, as 
you're clearly indicating. Money is another important tool that 
helps align us to the needs of the mission. What this proposal 
was trying to do was look at structural impediments that were 
organizational in nature that made it difficult to steward 
resources in a way that provided the best service.
    Mrs. Watson Coleman. Thank you. If the transportation 
security responsibilities were split across the multiple 
departments, how would the Federal Government effectively 
protect against and respond to attacks affecting multiple 
modes? And who would direct those Federal efforts in such an 
attack?
    Ms. Weichert. So the specifics around how we actually 
implement these proposals, again, back to the earlier comment. 
What we wanted to put out was a framework, a set of principles, 
and an orientation that was informed by leading practices 
around how do we structure government in the 21st century. We 
believe now it's the time for experts like yourself and others 
who care deeply about the issues to help articulate a path 
forward.
    Mrs. Watson Coleman. Thank you. I'm out of time.
    I yield back.
    Mr. Foxx. Thank you, Mrs. Watson Coleman.
    Mr. Comer, you're recognized for 5 minutes.
    Mr. Comer. Thank you, Madam Chairman.
    And welcome to the committee today. I think I for one am 
strongly in favor of reorganizing the government. The two 
things that I support strongly from an ideological standpoint 
with respect to government is to reduce the size of government 
and the bureaucracy, as well as cut wasteful spending.
    So my questions are, first of all, is this reorganization 
plan, is it an actual downsizing of government?
    Ms. Weichert. So I think it's a great question. The initial 
look at the data around how do we deliver the mission in the 
21st century looked at what are we doing? What does the 
American people expect the government to do? And where are we 
doing it well and where do we have challenges? Much like in 
business, looking at the gap analysis.
    What we do not actually have is a problem of too many 
Federal employees. So when we did the analysis, something like 
60 percent of our existing Federal workforce is eligible to 
retire within 10 years, 40 percent within 3 years. So what we 
don't have is a challenge of too many Federal workers to 
deliver the mission. What we do have is a skills alignment 
challenge and opportunity.
    Mr. Comer. So is reducing the Federal workforce, is that a 
purpose of the reorganization?
    Ms. Weichert. It is--it is not the purpose of the 
reorganization. It may be a byproduct in certain areas, but 
it's actually a major priority to look at the workers we 
already have who have passed background checks, who are 
committed to the missions, and look at how we might redeploy 
them to the areas we can't hire enough people.
    Mr. Comer. Would you say that one of the goals of this 
reorganization is to actually save money?
    Ms. Weichert. Absolutely.
    Mr. Comer. Shifting gears, I want to ask some questions 
about the nutrition assistance programs, the welfare programs. 
I'm a member of the Agriculture Committee. This has obviously 
been a big topic of discussion as we squeaked a farm bill 
through the House last week.
    With respect to the consolidation of nutrition assistance 
programs from the Department of Ag's Food and Nutrition Service 
into the renamed Department of Health and Public Welfare, this 
action would require congressional approval, correct?
    Ms. Weichert. Absolutely.
    Mr. Comer. What is the proposed timeline for stating the 
purpose of obtaining statutory authority here?
    Ms. Weichert. So this would be something we'd want to work 
with Congress on determining. The rationale for this proposal 
is really to make it easier for the States who actually 
administer the cash or near cash aid, who typically administer 
it out of one function, to make it more streamline so that more 
of our money actually goes to the needy families and isn't 
wasted on bureaucracy. I think the timeline and all the issues 
need to be hashed out with the key players.
    Mr. Comer. Okay. Could you explain the benefits to 
taxpayers and those needing assistance from the government of 
the consolidation of nutrition assistance programs with other 
welfare programs?
    Ms. Weichert. Sure thing. So conflicting and confusing 
eligibility requirements actually make it difficult for people 
who are in need of assistance to navigate what the requirements 
are, and make it also difficult for the States who are 
supporting that to help their constituents, their clients get 
the need--need-based aid that they need. It also may--the 
conflicting eligibility requirements may make it more 
vulnerable to fraud and abuse of that system.
    So the belief is that if we take a customer-centric 
approach, both in terms of how we deliver the money to the 
States as well as how the States interact with their clients, 
the needy families, this should streamline it and make it 
easier.
    Mr. Comer. Great. Sounds good. Look forward to working with 
the administration as we move forward with this reorganization.
    Last question, this is a big question. When you're looking 
at reorganizing the Postal Service, has privatization come up? 
Is that the direction that you think you're going to propose to 
head in? Or what's the status of privatization of the Postal 
Service?
    Ms. Weichert. So privatization is definitely a vision for 
the longer term and a framework that could be looked at. I 
think in all scenarios, both in the proposals that this body 
has agreed to as well as the task force that the President has 
pulled together, the near-term has to be about economic sort of 
improvement in the Postal Service, because you couldn't 
privatize an entity that has the level of liabilities and 
economic challenge that the existing Postal Service does.
    Mr. Comer. Great. Thank you very much.
    And I yield back, Madam Chairman.
    Ms. Weichert. Thank you.
    Mr. Foxx. Ms. Norton, you're recognized for 5 minutes.
    Ms. Norton. Yes. Ms. Weichert, looking at the proposals, 
one appears to dismantle the OPM's government personnel office. 
Now, that office was established by the Civil Service Reform 
Act of 1978. Note the word ``civil service'' in that Act. But 
the proposal appears to remove OPM's retirement, healthcare, 
and H.R. Servicing functions to the Government Services 
Administration, the GSA. It then renames the GSA the Government 
Services Agency. That is correct?
    Ms. Weichert. That is correct.
    Ms. Norton. The policy function of OPM that ensures that we 
have a merit-based, nonpartisan civil service system, as I 
understand it from the plan, is going to be subsumed in the 
Executive Office of the President?
    Ms. Weichert. So it would move and be elevated to the 
Executive Office of the President.
    Ms. Norton. Why is that an elevation?
    Ms. Weichert. So in most companies that have a human 
centric and employee centric strategic human capital function, 
having that function, having a chief human capital officer who 
is close to the executive and close to where prioritization and 
decisions are made is critical. And that the key element in 
this proposal is, since that initial 1978 change and the 
establishment of OPM with great merit system principles and 
great civil service reform ideas, we have not delivered against 
those merit system principles. By the data from the employees 
themselves in the Federal Employee Viewpoint Survey, our civil 
servants do not believe we are keeping up with merit. They 
don't believe that promotions are based on merit. They don't 
believe awards depend on merit. They don't believe that----
    Ms. Norton. I certainly don't know what putting part of the 
HR office in the executive office of the President would speak 
to those concerns of employees. That's not the--that is not the 
opinion of your own executive, Linda Springer, a former senior 
adviser in your office who has helped launched the 
administration's reorganization effort. And she's a former OPM 
director in the Bush administration, has warned that this 
change is, and here I'm quoting her, very troubling. She 
believes that a central personnel office is necessary.
    According to her, an independent central personnel office 
is needed because--again, I think I should quote her--because 
of the firewall between the agency and political personnel at 
the White House as it relates to personnel practices, 
particularly hiring and other actions, to be sure the oversight 
for compliance for merit systems principles is handled 
independently. And that comes from a--that comes from a 
functionary senior adviser in your own office from the Bush 
administration.
    Ms. Weichert. So one of things that's a real challenge 
about any reorganization is the people who have grown up within 
an organization are rarely able to fundamentally change it. And 
so it's important to look at data and facts. And one of the 
things we did look at is across the OECD countries that are 
relevant and similar to the United States, only one had an 
organizational construct for people that was comparable to OPM, 
and that was France, which is not known to be a bastion of 
bureaucratic efficiency. Every other major comparable country 
in the OECD had a function while they still had civil service 
principals. And in some cases, they might have had something 
like the Merit System Board that we have as separate. But in 
each case, the--having it close to where decisions are made 
about budget and policy priority helped ensure that mission, 
service, and stewardship were aligned with the workforce 
issues.
    Ms. Norton. I yield back. But I have to note that you're 
having it very close to where political decisions are made and 
that firewall seems to disappear. Thank you.
    Mr. Foxx. Thank you, Ms. Norton.
    The chair notes the presence of our colleague Congressman 
Bobby Scott of Virginia. We appreciate your interest in this 
topic and welcome your participation today.
    I ask unanimous consent Congressman Scott be allowed to 
fully participate in today's hearing.
    Without objection, so ordered.
    Mr. Russell, you're recognized for 5 minutes.
    Mr. Russell. Thank you, Madam Chair. And thank you, Ms. 
Weichert, for coming here today.
    While I support the administration's dedication to 
improving efficiency and streamlining government bureaucracy, 
the proposal to spinoff Federal responsibility and 
congressional oversight for operating our air traffic control 
functions as written in the reform plan is inconsistent with 
that goal by putting national security, safety, accessibility, 
and efficiency of our national airspace in jeopardy.
    The reform plan states that privatizing air traffic control 
operations would reduce transportation fragmentation across 
government. This fragmentation refers to the vital relationship 
between the FAA and Department of Defense to protect the 
national airspace in tandem by sharing airspace, training 
systems, assets, equipment, and information. This is made 
possible by their mutual status as Federal agencies within the 
Federal Government.
    By divorcing ATC functions from the government and thus 
Department of Defense, each shared interest would be subjected 
to a yet unknown established process of coordination, which 
could leave our Nation vulnerable to cybersecurity and physical 
attack. It would also create a potential multibillion dollar 
unfunded liability for Department of Defense to update its own 
systems in coordination with these new processes.
    Instead of reducing fragmentation, air traffic control 
privatization compromises the interoperability the Department 
of Defense and other agencies such as the FBI, Homeland 
Security, the DEA, and our intelligence services currently 
enjoy. Instead of jointly developing the technologies of 
spectrum vital to our national security, privatization of ATC 
separates and complicates them. Furthermore, past proposals 
have also diminished the powers of the President and reduced 
his vital oversight, as well as Congress', to protect the 
national security of our airspace against nefarious cyber 
actors in times of national duress such as the 9/11 terrorist 
attack. Instead of the President, the FAA, and the military 
being able to rapidly make decisions, such as September 2001, 
the emergency would first have to navigate its way through a 
private board, something that is not only unrealistic, but 
dangerous.
    The proposal to streamline Department of Transportation by 
privatizing ATC functions is intended to better enable our 
aviation system to respond to consumer needs and modernized 
services. And while we embrace modernization efforts to improve 
cost efficiency, the lengthy process of privatizing would be 
counterproductive to those ends, especially given that 
modernization under NextGen is well on track. Instead, it would 
result in industry uncertainty, significant cost to the Federal 
Government, and a slower pace for NextGen implementation.
    FAA administrator and NextGen chairman Ed Bolton warned 
that such a transition could take 7 years and handle the 
billions of dollars of taxpayer paid for infrastructure to a 
private entity, while industry would be unable to update 
technology and procedures. The aviation industry cannot afford 
to lose time and resources in these indirect efforts. They 
would much better be served in investing these years and 
dollars directly into an already unfolding and modernizing 
NextGen implementation.
    While language in the reform plan advocates privatized ATC 
systems such as those in Canada and other places, it is 
important to note that there can be no comparison with the 
88,000 flights a day in the United States to those of 9,000 in 
Canada, most of which originate or terminate in the United 
States, handled by our system, or even the 35,000 in Europe, 
when combined with Canada, don't even equal half of U.S. air 
traffic.
    The U.S. airspace is not only the largest, busiest, and 
most complex in the world; it is also the safest and most 
accessible. This is in large part due to the public structure 
of the system, including its accountability to this Congress 
and the FAA and its mission to provide reliable air traffic 
services to a wide range of users and communities across our 
Nation. For these reasons, Congress has recently, historically, 
and repeatedly rejected legislative efforts to privatize our 
Nation's air traffic control systems.
    Language for privatization in the 21st Century AIRR Act 
held up FAA reauthorization for over a year in the House, and 
it faced stiff bipartisan opposition in both the House and the 
Senate. Any further attempt at ATC privatization would be 
redundant and a waste of legislative efforts, and also reduces 
the very powers of the President that the President is trying 
to reform.
    While we appreciate and support reorganization as an 
opportunity for much needed government reform, we will continue 
to oppose any attempt to those advocates and allies of this 
system to privatize it in the United States. For this 
fundamental reason, our national airspace belongs to we the 
people and not a private company.
    And, Madam Chairman, I yield back my time.
    Mr. Foxx. Thank you Mr. Russell.
    Mr. Lynch, you're recognized for 5 minutes.
    Mr. Lynch. Thank you very much, Madam Chair. And, Ms. 
Weichert, thank you for appearing before this committee to help 
us with our work.
    I had a chance to read through the Trump administration 
reorganization plan, and it says here at page 124, it says that 
the overall goal of the reform is to enhance our global 
presence and policy processes and to serve the goal of ensuring 
the most efficient allocation of personnel consistent with the 
best U.S. interest around the world.
    Am I reading that correctly?
    Ms. Weichert. I can't see what you're reading, but I'm 
guessing it's right.
    Mr. Lynch. Yeah, all right. Okay. I'll actually ask to 
submit it for the record.
    Mr. Foxx. Without objection.
    Mr. Lynch. Okay.
    You realize we don't have an ambassador in Albania. Would 
that be consistent with an enhanced global presence?
    Ms. Weichert. I was not aware of that.
    Mr. Lynch. Okay. We don't have one in Australia either. We 
don't have one in Azerbaijan. We--and I'm talking about we 
don't have an ambassador and we don't have anybody nominated. 
So here's the President out here trying to reorganize the 
government, and we don't have anybody in, as I said, Albania, 
Australia, Azerbaijan, Belarus, Belize, Bolivia, Central 
African Republic, Ivory Coast, and Cuba. No ambassador, no one 
nominated. So it's not like we're slowing the nominations down; 
no nominations have been made. So, obviously, we can't confirm 
someone because the President has not offered a nominee.
    We don't--I was in--Mr. Issa and I were in Egypt about 10 
days ago, a couple of weeks ago, I guess. We don't have an 
ambassador in Egypt, an incredibly critical post in the Middle 
East, an important ally at times with Israel. They've got an 
insurgency on the ground in the Sinai. We've got troops there. 
We've had them there since 1973, believe it or not.
    And, you know, there are also some outlying human rights 
issues that we raised with President Abdel Fattah el-Sisi a 
couple of weeks ago as well, but we have no ambassador, and 
that's problematic.
    We don't have an ambassador in Eritrea, Georgia, Honduras. 
We've got major problems on our border involving many Honduran 
refugees, and yet we don't have anybody on the ground in 
Tegucigalpa that could articulate our policies. And again, no 
nominees in any of these countries.
    We don't have anybody in Iceland, Ireland, Jordan. Mr. Issa 
and I visited with King Abdullah last week. Forty percent of 
his population are refugees. He's trying to do the right thing 
by Iraqi refugees, Syrian refugees. He's a great--we do not 
have a better ally in the region, ourselves and Israel, than 
Jordan. They are with us in the fight against ISIS. They are 
doing their work. We have no one on the ground. We don't have 
anybody representing this government as an ambassador to 
Jordan. Hugely problematic.
    Libya. Growing concerns about ISIS regenerating in that 
country. We have no ambassador.
    Mexico. You think we would have an ambassador to Mexico. We 
do not. The President has not nominated anyone, and we've got 
major problems on the Mexican border. I don't have to go over 
that with you.
    Mongolia. OECD, you mentioned OECD, we don't have a 
designee to OECD, the Organisation for Economic Co-operation 
and Development. Hugely important.
    Panama. No ambassador. No one nominated. Qatar. Another 
huge problem in our Middle East policy. We don't have anybody 
on the ground there. Saudi Arabia. You think we might have an 
ambassador to Saudi Arabia? No one nominated, no one appointed. 
Seat is empty. Singapore. Somalia, Al Shabaab is on the way 
back. We have nobody on the ground in Somalia. South Africa, 
Sudan, no one in Khartoum. Sweden, Syria, obvious problems. 
Tajikistan, major problem for the folks--for our troops on the 
ground in Afghanistan. There's a foreign fighter path. 
Tanzania, Turkey. Again, I was there a couple of weeks ago. 
Critical post in the region, straddles Europe and Asia. Huge 
problems going on right now. No one on the ground there. In 
Venezuela.
    So this plan, rather than going out and trying to privatize 
the post office, how about the President do his job? Nominate 
people for these countries. Get us on the ground. The 
President's proposal last year was to cut State Department by 
30 percent, and this year, to cut them by 22 percent. We need 
to do our job on the ground.
    We--you know, we had a group of 50 generals that signed on 
to a letter to express how important it is for the military to 
have good diplomatic people on the ground so that we don't put 
our men and women in uniform on the battlefield. We can avert 
that by having good strong diplomacy on the part of the State 
Department.
    Mr. Foxx. Mr. Lynch, you time has expired.
    Mr. Lynch. Madam Chair, you have been indulgent, and I 
really appreciate that. And I do yield back my time and I thank 
you.
    Mr. Foxx. Thank you.
    Mr. Mitchell, you are recognized for 5 minutes.
    Mr. Mitchell. Thank you, Madam Chair. Thank you, Ms. 
Weichert for being here.
    In contrast to what's happened a little bit here, I will 
endeavor not to do a 5 minute and 30 second floor speech.
    A couple of comments on my colleague about FAA and air 
traffic control. I support what the administration is trying to 
do, support it as we looked at the FAA bill. There's some 
differences of opinion, clearly.
    The Defense Department weighed in and said there weren't 
concerns with the national airspace. In fact, Secretary Mattis 
personally made phone calls to Members about that issue. So I'm 
confused as to where some of my colleagues think somehow we're 
going to give up our airspace to foreign entities.
    There's discussion about NextGen being well under track. 
Well, in fact, we spent billions of dollars, yet they can't 
give us a date when NextGen will be put in place. We put 
additional accountability measures in the bill of the FAA 
reauthorization from the House to in fact insist we get a 
better idea when that's going to happen, the cost of not doing 
that. So I will support, if we don't get NextGen in place, we 
don't update our air traffic control system which, in fact, is 
archaic, we'll make another pass by and privatize the air 
traffic control, whether all of my colleagues are happy with 
that or not.
    Let me shift, if I can. I spent 35 years in workforce 
development and post-secondary ed. So your proposal on 
combining education and workforce is intriguing to me. Give me 
an example, I'm curious have you looked at it. As we looked at 
workforce programs in the country, there's administrative costs 
at the Federal level, both the national office and regional 
office. There's administrative costs to the State, both the 
agency administering it as well as their management and budget 
unit, which also charged what was called indirect costs. Then 
you had the local agency has an admin rate, and then the 
service provider has administrative costs.
    As you looked at this, did you estimate what the total 
administrative cost currently being incurred by those programs 
was?
    Ms. Weichert. So thank you for the question. We definitely 
looked at duplication and overlap, and where estimates had 
already been done by others such as the Government 
Accountability Office, we took those into consideration.
    As I have said before, the goal of this proposal was not to 
actually size the costs and benefits but put out a framework. 
What I can say is the fragmentation in workforce development 
was stunning. So 40 programs--and actually there is a lot of 
debate about that. So I heard the number 40. I have heard the 
number 46. I have heard the number 47. We can confirm 40 in 
OMB, but we know the number might be higher.
    Mr. Mitchell. Let me give you an estimate of that. I have 
done it for a variety of programs. We operated a lot of those 
programs. About 30 percent of the total money that we 
authorized in Federal funds goes to administrative costs before 
it delivers services to any individual that needs those 
services, be it a laid off auto worker, whatever you want to 
call it.
    Ms. Weichert. Right.
    Mr. Mitchell. Thirty percent of the money. I guess I agree 
with what you are trying to do here in terms consolidating and 
reduce the fragmentation, but the important thing to the 
taxpayer and people that need services is actually put more 
money of what we authorize the taxpayers pay directly 
delivering services.
    So what is your thoughts on the next step in terms of how 
it is we do that and limit the administrative costs that chew 
up so much of these budgets?
    Ms. Weichert. So, I think it is a great point, and this is 
obviously one that has generated a lot of interest. I think 
what the chairwoman indicated in her remarks is really 
important. Congress and the House, in particular, already 
thinks about education and labor in an integrated way, and I 
think this is a great place to start that dialogue and actually 
frame out, you know, what would a timeline that would be 
appropriate, what would the way to start forward, and to your 
point, what are the metrics that we are really focused on.
    I mentioned earlier, you know, what drove this was mission, 
service, stewardship. In this context I'd want to have metrics 
around the mission of training people, are we actually 
effectively training people for the jobs that we have versus 
jobs of the past.
    Mr. Mitchell. Well, for example, I mean, some of these 
programs, which, in fact, do duplicate. I have been involved 
with them again. You can grant them as block grants to the 
State and reduce a great deal of the Federal bureaucracy in 
terms of allegedly delivering the programs.
    They don't deliver a service. They theoretically make sure 
that you are delivering it in a way they want to.
    Ms. Weichert. Right.
    Mr. Mitchell. We could block grant it to the State. We 
could further limit administrative costs to the State and local 
service providers. So I think the right direction you are going 
is correct, but we need to be aggressive about that 
administrative cost because it is a huge burden.
    Ms. Weichert. Yeah, and I think it is a great point. And 
from this point forward, we put out kind of the principles, but 
the experts, the people who really live and breathe this can 
help us frame, you know, the--both the desired metrics as well 
as metrics that we would be worried about unintended 
consequences, that we have to ensure as we are making change 
happen, we don't inadvertently do some harm, and that would be 
something, again, we would like to engage in dialogue on.
    Mr. Mitchell. I appreciate your time, and I yield back. 
Thank you, Madam Chair.
    Ms. Foxx. Thank you, Mr. Mitchell.
    Mr. Cummings, you are recognized for 5 minutes.
    Mr. Cummings. Thank you very much. Ms. Weichert, first of 
all, I want to thank you for meeting with me on yesterday. And 
as I said to you then, one of my main--major concerns is that 
this is not just an effort to do more harm to Federal 
employees. I think they have given over and over again. 
Whenever folk want to get extra money for something or they 
need some, they go after Federal employees, and it concerns me 
greatly.
    I want to go and talk about this retraining, but before I 
do that, I want to go to something that Mr. Lynch talked about.
    You got all these vacancies in the ambassadorships and 
people not even nominated. It seems like this is--there is some 
homework we need to do before we even get to where you are. We 
are not--we are not even functioning competently right now. You 
follow what I am saying? Are you there?
    Ms. Weichert. So the----
    Mr. Cummings. You have this blank look on your face.
    Ms. Weichert. Yeah. So I appreciate the comments, both of 
Mr. Lynch and what you are saying about nominations.
    Mr. Cummings. Yeah.
    Ms. Weichert. None of the proposals that we looked at were 
specifically dealing with that element, so all of the places we 
looked at programs, we were looking at fundamentally structural 
challenges to achieving mission, service, and stewardship.
    Mr. Cummings. One thing we talked about yesterday was the 
whole idea that in the next 10 years, I think you told me, a 
large percentage of our Federal employees will be retirement 
eligible. Is that right?
    Ms. Weichert. Correct.
    Mr. Cummings. What was that percentage?
    Ms. Weichert. Sixty percent.
    Mr. Cummings. That is a lot.
    Ms. Weichert. That is a lot.
    Mr. Cummings. You also said that we don't--you have got a 
good group of people, the Federal employees, but sometimes you 
need to kind of find a way to make sure their skills match up 
with the jobs that are available.
    Ms. Weichert. Correct.
    Mr. Cummings. How do you plan to do that?
    Ms. Weichert. So there are a number of proposals in here. 
One of the key areas is really elevating the OPM function to 
focus on the strategic elements of the mission.
    So, today--and this is really the kernel of the proposal. 
Today, most of the people in OPM are effectively doing 
transaction processing related to HR paperwork. They are not 
thinking about the strategic issues that you and I discussed. 
They are not thinking about skill set mismatches between, you 
know, the skills that were put in the GS schedule back in 1949 
and what we need today.
    We don't have the resources, given the way that 
organization has to function, because it is dealing with all 
this administrative overhead. So the first thing we want to do 
is elevate the strategic functions of OPM to stay focused on 
merit systems principles in the 21st century and how we 
actually execute that.
    There are a couple of other proposals in there that I think 
are critical. There is one that probably has gotten almost no 
attention, but it is something called, ``The Government 
Effectiveness Advanced Research Center,'' something that we 
would like to propose that would invite academics, public 
sector, and private sector individuals to share ideas about 
things like retraining and retooling.
    And fundamental issues that affect Americans broadly around 
as we automate more functions around paperwork processing, how 
do we redeploy those same people, those valuable workers to the 
highest and best use in government serving people, reducing 
backlogs, and doing jobs like cybersecurity, data science, and 
other things that add value.
    Mr. Cummings. Now, you--the entire world has witnessed this 
administration's inhumane treatment of children. So when you 
testify about the Trump administration's plan that would remove 
children's aid programs from their traditional department, 
people are right to question the true motives. I think Ms. 
Norton was referring to that.
    President Trump's plan would move the supplemental 
nutrition assistance program and the women's, infants, and 
children program out of the Department of Agriculture where 
they have been administered, helping millions of children and 
low-income parents for decades.
    The administration says that this disruption would benefit 
the country, but I think we need to see more than empty 
promises. Has the administration conducted a cost-benefit 
analysis for this particular proposal?
    Ms. Weichert. So as I indicated earlier, the proposals were 
meant to look for ways that we could better serve the 
communities that we are trying to help and that the 
implementation phase would look at cost benefits.
    Mr. Cummings. One last question. The postal service. This 
is something that we, as I said earlier on this committee, 
worked very hard on for years. We finally came up with a 
proposal where all the stakeholders were in pretty much 
agreement.
    Have you taken a look at that? I mean, because it seems 
that it solves a lot of the problems, and now we hear that you 
want to privatize the postal system. So, I mean----
    Ms. Weichert. So we are definitely aware and appreciative 
of the work that this committee has done. And as you and I 
discussed yesterday, having a bipartisan perspective is 
welcome, and it is something that the team that is working on 
this issue is definitely taking into account.
    Mr. Cummings. Thank you very much.
    Ms. Foxx. Thank you, Mr. Cummings.
    Mr. Walker, you are recognized for 5 minutes.
    Mr. Walker. Thank you, Madam Chairman. Ms. Weichert, under 
the proposed reorganization plan, the administration has 
decided to combine the Department of Education and Labor. I 
think many of us commend that effort.
    Are there any other agencies that the administration looked 
at combining or even completely eliminating?
    Ms. Weichert. So the analysis--and I would encourage--this 
is a shameless plug, but I would encourage folks to look at not 
just the proposals themselves but also the framing of them. It 
shows how we actually looked at the mission, service, and 
stewardship.
    So we focused on areas where there were challenges in, 
first and foremost, delivering the mission that the people 
expect of us. I think another proposal that I would mention--so 
the Army Corps civil works component was another area where the 
civilian work of the Army Corps, which is about 22 percent of 
the total work that that group does, is very complex, very 
bureaucratic, and has a lot of problems with mission delivery, 
which is why we proposed reducing the number of agencies 
involved in some of those projects from three to two. It 
wouldn't eliminate Army Corps for Defense proposes, but it 
would get it out of the business of civil works.
    Mr. Walker. Sure. Okay. Under the reorganization plan, I 
believe also the administration has suggested the postal 
service, which was just discussed, could be at least partially 
or maybe even fully privatized. Can we unpack that a little bit 
more. When it comes to the administration, how they reached the 
conclusion that the postal service needs to be at least 
drastically restructured?
    Ms. Weichert. So I think the simple facts--you know, if we 
look at what we want the postal service to do, it has got three 
main roles: universal service for Americans that was outlined a 
very long time ago in the Constitution; we want to take care of 
the postal service employees; and we want to ensure that it is 
economically solvent.
    In the last two categories, economic issues and really, you 
know, change in the economic model for the postal service, and 
particularly the drop in first class mail has fundamentally 
affected our ability to meet our liabilities for employee 
benefits as well as to be economically viable as an independent 
agency.
    Mr. Walker. Sure. Do you see a moment or a time where the 
historical average would be followed when it comes to the price 
of First Class mail? Is that part of your discussion?
    Ms. Weichert. So I have not been in the details of this 
particular proposal, and as I said earlier, we invite the 
experts who are deeply steeped in these issues to be involved. 
But what I can say is, you know, the driving force behind, I 
think, all of these activities, the work done in this body, the 
work of the task force, and then the proposal for the long-term 
potential privatization all have in mind the fact that the 
current economic situation--and you know, $100 billion in 
unfunded liability, 6 years of default, that is unsustainable, 
and we still have an obligation to serve, you know, the core--
the core ethos of that.
    Mr. Walker. Well, thank you. I don't--Ms. Weichert, I don't 
consider that a shameless plug on your behalf. I think it was 
Yogi Bear that said: It ain't bragging if you have really done 
it.
    So keep up the good work. With that, I yield back, Madam 
Chairman.
    Ms. Weichert. Thank you.
    Mr. Connolly. Would my friend yield before he yields back?
    Mr. Walker. In theory, yes.
    Mr. Connolly. I was just going to suggest to my friend that 
one of the things Ms. Weichert did not talk about in response 
to your question about the postal service was, of course, the 
onerous prepayment requirement that Congress put on the postal 
service in 2006 in lame duck, which has cost the postal service 
billions of dollars, and that needs to be addressed. This 
committee, as you know, Mr. Walker, has addressed that 
unanimously.
    Mr. Walker. Yes.
    Mr. Connolly. I would love to see the administration at 
least acknowledge that that is a major problem.
    Thank you for yielding.
    Mr. Walker. Of course. And since I have a couple of seconds 
of my time left, Ms. Weichert, would you like to touch on that 
at all before I officially yield back?
    Ms. Weichert. Unfortunately, I don't have the context to 
have an informed response.
    Mr. Walker. Fair enough. Yes. I don't want to put you on 
the spot without more information. Thank you, and with that, 
Chairwoman.
    Ms. Foxx. The gentleman yields back.
    Ms. Lawrence, you are recognized for 5 minutes.
    Mrs. Lawrence. Thank you. Ms. Weichert, can you tell me--
other agencies had the opportunity to submit reorganization 
plans with their own prospectives. Did you offer this 
opportunity to the Postal Service?
    Ms. Weichert. I don't know the answer to that question.
    Mrs. Lawrence. Do you have, in your possession, a 
reorganization plan from the Postal Service?
    Ms. Weichert. I do not.
    Mrs. Lawrence. Do you know why not?
    Ms. Weichert. I do not.
    Mrs. Lawrence. Did OMB consult the Postal Service at any 
point in the process of creating such a plan, or did your task 
force at any time even ask for it?
    Again, you don't know.
    Ms. Weichert. I don't know.
    Mrs. Lawrence. So how did you come up with this 
recommendation or plan on privatizing the Postal Service, 
keeping in mind that the Postal Service does not fund itself 
with taxpayer's dollars. It funds itself based on the sale of 
their products. In addition to that, it operates under a 
directive of the Constitution.
    So how did you come up with a plan to privatize it when you 
have not engaged the organization? And could I add to that, 
when you are talking about reorganization, I am looking at the 
members of the task force who are political appointees. Have 
you had a forensic audit of tasks and desk audits of these 
departments so that when you--this is a very severe 
recommendation. It is very high level. To say I am going to 
privatize it and then actually put it on the selling block for 
the highest bidder is what I am reading into this proposal, and 
you have not even engaged the organization, but you have 
political appointees who have sat at a table, and, to me, I 
will be honest, looks like a political just throw it up against 
the wall, we should privatize it when you haven't, to me, 
addressed the constitutional responsibility as saying that 
there is economic challenges when the Postal Service pays its 
own bills because they do not use taxpayer dollars.
    So you are putting apples and oranges together, and I am 
very, very concerned that a recommendation of privatization, 
not reorganization, but privatization is something that this 
task force to--and I am not seeing the expertise or the due 
diligence to even get to that point. I am extremely concerned.
    You are saying all the right words. I am very impressed 
with your presentation. You obviously understand a lot, but 
right here in this lane, you are lacking a lot that for me to 
have you to sit here and say privatize, to sell it off when 
this body has been working for years to come up with a 
bipartisan plan--bipartisan--because we are trying to service 
the country based on our constitutional requirement. I need you 
to say something other than ``I don't know.''
    Ms. Weichert. So I appreciate the passion and the 
commitment to the topic. On this particular proposal, it very 
much was looking at the long term with the understanding that 
there were a number of players looking at the near term issues. 
And, again, every proposal that made it in here was looking at 
a combination of are we achieving the mission, the service, and 
the stewardship responsibilities. And the notion of an 
independent organization that is meant to be self-funded but 
that has $100 billion in unfunded liabilities----
    Mrs. Lawrence. And part of that is because of what we did. 
We put legislation together to address that, because we are on 
all this body, who has the constitutional responsibility as 
well, based on our oath, we have pushed that forward.
    How in the world did you get from saying we want to be 
economically feasible to selling it to the highest bidder and 
to privatize it? I just don't understand that leap, unless it 
is purely political.
    Ms. Weichert. I wouldn't say it is purely political. What I 
would say--and again, in the front of the volume, we looked at 
what are those things that are fundamental to the mission, 
service, stewardship component.
    Mrs. Lawrence. So why wasn't reorganization even put on the 
table?
    Ms. Weichert. So the external analysis and looking at other 
proposals, including how other countries have looked at this, 
definitely fed into that, but what I would say is----
    Mrs. Lawrence. But I just want to interrupt you. You looked 
at other countries, but you did not talk to the organization 
that you are talking about privatizing. Something seems wrong 
with that, that you would sit in a room and look at other 
international post companies, organizations, and make a 
recommendation of privatizing and sell it without even doing 
your due diligence for what we do in America and looking at the 
forensic operations, to look at where are the cost 
deficiencies.
    I am very concerned that this is not appropriate. My time 
is up, so I am going to close with this. This body, who has the 
legislative responsibility based on the people who voted us 
here, I would hope every single one of us will stand up and 
have the political courage to say we must meet those economic 
responsibilities.
    Ms. Foxx. The gentlewoman's time has expired.
    Mrs. Lawrence. And we will continue to do that----
    Ms. Foxx. The gentlewoman's time has expired.
    Mrs. Lawrence. --but this is not professional and it looks 
political and unacceptable.
    I yield back.
    Ms. Foxx. The gentlewoman's time has expired.
    Mrs. Lawrence. I yield back.
    Ms. Foxx. The gentlewoman's time has expired.
    Mr. Grothman, you are recognized for 5 minutes.
    Mr. Grothman. Thank you for being here, and I will point 
out, the post office is in the Constitution. I think it is 
important for everybody to realize what is in the Constitution 
and also important for everybody to realize what is not in the 
Constitution and the Federal Government is forbidden to do. And 
it is important to bring that up as well.
    Thank you for the proposals. I mean, I think it is a good 
thing to try to look at what we can do to make the government 
more efficient, and I think when too many different agencies 
have things, you know, one hand not know what the other is 
doing, you result in spending too much money and having 
perverse effects.
    One of the things you want to do is you want to combine the 
nutrition assistance programs with other welfare programs. 
Could you explain the benefits of that?
    Ms. Weichert. So I think that the primary issue actually 
looks at the delivery and the service component.
    Mr. Grothman. Right.
    Ms. Weichert. So States administer both the temporary 
assistance for needy families, as well as the SNAP and the WIC 
programs essentially to largely the same group of people, and 
they tend to have one organization that does that 
administration, but when they deal with the Federal Government, 
they have to deal with confusing, overlapping, sometimes 
conflicting requirements that add to their overhead and 
basically reduce the amount of money of the whole pool that 
actually goes to the needy families.
    Mr. Grothman. It is good. You know, one of the things that 
I am interested in and one of the reasons I ran for this job is 
you add up the public benefits, all the different things: 
income tax credit, the SNAP, the low-income housing, the TANF, 
you wind up with really big numbers that discourage people from 
working and discourage people from getting married as well.
    Do you think that by trying to put everything under one 
roof we do a better job of seeing, quite frankly, how much is 
available out there if you don't try to work as hard as you 
can?
    Ms. Weichert. So I think that the key thing from this 
proposal was really in taking a great view of some of the best 
in serving communities that are at risk. When you look at how 
charities are judged and measured, they are measured by how 
much of the actual benefit goes directly to the cause, and 
then, you know, the charities that have the best performance 
have the least amount of overhead. That is really where I think 
we should be judged.
    Mr. Grothman. You feel we are spending a lot of money on 
poverty and a lot of that money is going to government 
employees who are administering the programs?
    Ms. Weichert. I absolutely think that we have excessive 
administrative overhead that would be better served actually 
bringing that money to the people that are targeted for it.
    Mr. Grothman. I will give you a question, and you can think 
about this. It is a conversation I once had with a person high 
up in the administration. It was not the President.
    Do you feel we would be better off just taking a block 
amount of money and giving it to the States and saying: Here, 
you deal with the low-income housing, you deal with the 
nutrition, you deal with the educational requirements, and we 
are out of here all together, because when you look at the 
overall amount of money spent per person in poverty, it is just 
shockingly high.
    The average person would be happy to live off that, and of 
course, a lot of that is not trickling down to the people if 
poverty. It is going to the bureaucracy. But could you see the 
day come when the administration would just say: Here is X 
amount of dollars per person in poverty in your State today. 
You deal with it?
    Ms. Weichert. So I haven't done the full analysis to be 
able to get to that conclusion. What I would say is that would 
be part of the dialogue that I think we should have. Certainly 
there are governors and State and local authorities who would 
welcome that. And I think, you know, as many Members of this 
body have indicated, when we get to the implementation phase, 
we have to look at the costs and benefits, but I think it is 
certainly something we would want to look at.
    Mr. Grothman. I would encourage you to do that. I came here 
with all sorts of ideas how to run these programs, but over 
time, I realize that Congress is incapable of doing what they 
should do in these programs, and maybe if you just said: We 
will give the State of Wisconsin $20,000 a year for every 
person in poverty, we would be ahead of the game and just clear 
the decks here in Washington.
    With regard to the merger of Education and Labor, is there 
a reason why we didn't include something in there a little bit 
more like commerce to kind of change the mentality and realize 
that our goal here is to help commerce and not get in its way? 
Is that something you would ever think about adding to the mix?
    Ms. Weichert. I am sorry. I didn't understand the question.
    Mr. Grothman. Would you ever consider adding commerce or 
economic development, that type of thing, in the mix maybe to 
try to change the mentality in the departments of education and 
labor?
    Ms. Weichert. So I think it is a great question. What we 
wanted to do was get as clear as we could about core mission 
elements, and so I think the place we saw the greatest overlap 
had to do with workforce development and the alignment of how 
we actually prepare people for the work force, so it didn't go 
as far as the actual commerce mission, but I think it is an 
interesting thought.
    Mr. Grothman. Thank you for coming over. It is a tough--we 
are a tough crowd.
    Ms. Foxx. The gentleman's time has expired.
    Ms. Kelly, you are recognized for 5 minutes.
    Ms. Kelly. Thank you, Madam Chair. Welcome. The President's 
reorganization proposal includes a radical plan to merge the 
Department of Education with the Department of Labor, but it 
only devotes four pages to this proposal. Such a merger 
obviously would require Congress to agree. But Senate 
appropriations chairman, Roy Blunt told reporters there are not 
sufficient votes for this merger, so it is not going to happen.
    But I wanted to ask about reorganization that is happening 
inside the Department of Education. The office of civil rights 
within the Department is charged with protecting the rights of 
disabled students, people of color, LGBTQ students, and others 
who face discrimination.
    Has the Department considered downsizing or consolidating 
the regional offices of the office of civil rights?
    Ms. Weichert. I am not aware of anything that would affect 
the office of civil rights at all.
    Ms. Kelly. Your proposal says you would move the office of 
civil rights. I am asking if you or the Department have 
considered consolidating its regional offices or shrinking its 
footprint?
    Ms. Weichert. So what I can say--so I am not familiar with 
all of the details of the internal deliberations that the 
Department of Education has done, but as part of this proposal, 
very explicitly, a number of the programs, including anything 
impacting the office of civil rights, was not discussed.
    Ms. Kelly. So you don't know if there was an analysis on 
the caseload of investigations this office would be able to 
maintain after you cut the number of regional offices?
    Ms. Weichert. I don't know, no.
    Ms. Kelly. I would also like to ask you about another 
important office in the Department of Education, which is the 
budget service office. That is the office that communicates 
with Congress and performs fiscal evaluations on current and 
future programs. It is an important office, and Congress relies 
on it.
    Are there any plans that would change the place and 
prominence of that office at the Department of Education? And 
if so, what are the details?
    Ms. Weichert. I am not aware of that. It was not included 
in this proposal.
    Ms. Kelly. So you don't think anything will change?
    Ms. Weichert. I don't know in terms of internal 
organizational structure.
    Ms. Kelly. I would like to ask you about the Federal 
student aid office now. The Federal student aid office, which 
is responsible, as I am sure you know, for administering 
millions of taxpayer dollars in loans to student borrowers. The 
President's plan says that the Federal student aid office will 
be merged with American workforce and higher education 
administration office, along with eight other offices from the 
Department of Ed and Labor, leaving it further removed from any 
accountability to borrowers or taxpayers, but that big merger 
is not likely to happen soon.
    Why did you propose moving the Federal student aid office 
in this way?
    Ms. Weichert. So the proposal that is in the volume was 
hoping to get Federal student aid aligned to a full workforce 
development view of student aid that would encompass not only 
higher traditional 4-year educational opportunities but also 
vocational opportunities, make that easier. The proposal 
envisions it is still operating as a whole entity and not being 
further merged but that the management shift would help align 
that broader mission of ensuring that we have student aid 
available for a range of educational opportunities, not just 4-
year universities and things of that nature.
    Ms. Kelly. So you are looking at not only 4-year but 2-year 
or----
    Ms. Weichert. Two-year vocational technical type programs, 
as well as potentially a greater understanding of the role of 
apprenticeships and other type on-the-job training.
    Ms. Kelly. Any graduate? Are graduate programs included in 
that?
    Ms. Weichert. So, again, the goal would be to align all of 
the Federal student aid ideas to really the end-to-end 
perspective route, workforce development.
    Ms. Kelly. And as you--as this plan may come about, does it 
increase the accountability to taxpayers and borrowers as the 
GAO and Inspector General have repeatedly recommended?
    Ms. Weichert. So this tool is not, I think, the optimal 
tool for that. I think there are a number of things in the 
President's management agenda looking at our IT modernization 
and data accountability and transparency where we absolutely 
welcome the opportunity to get more transparent around elements 
of the data so that we can be more accountable but do that in a 
way that is efficient, effective, and not burdensome.
    Ms. Kelly. Okay. Well, I think I yield back the balance of 
my time. Thank you.
    Mr. Cummings. Does the gentlelady yield?
    Ms. Kelly. Yes, I will.
    Mr. Cummings. Madam Chairwoman, I ask unanimous content so 
have the statements from the American Federation of Government 
Employees, the National Treasury Employees Union, and the 
National Active and Retired Federal Employees Association 
entered into the record.
    Ms. Foxx. Without objection.
    Mr. Cummings. Thank you.
    Ms. Foxx. Mr. Hice, you are recognized for 5 minutes.
    Mr. Hice. Thank you, Madam Chair.
    Thank you for being here. Can you explain the proposal to 
move alcohol and tobacco responsibilities out of the ATF?
    Ms. Weichert. I am not familiar with the details of that 
proposal, but I would be happy to get back to you for the 
record.
    Mr. Hice. Okay. Do you know anything about that, the whole 
issue of where the firearms and explosive bureau would go and 
why?
    Ms. Weichert. I do not.
    Mr. Hice. Okay. I think it is--before I move on to some 
other questions, I think it is something that we have got to 
consider. It appears to me that we have got to look at who 
would regulate firearms if it goes back under the Department of 
Justice or remains under the Department of Justice and 
potentially FBI.
    Certainly the FBI is, in my opinion, not the proper place 
to regulate firearms, are not equipped to regulate industry and 
that type of thing, and it is concerning to me where ultimately 
that would go.
    Let me ask a little bit about the Department of Labor. 
Specifically, as it relates to OSHA, has that issue come up at 
all?
    Ms. Weichert. So there are no plans to change any of the 
specific activities of OSHA under this plan.
    Mr. Hice. Okay. Well, there are about half of our States 
that have a State run type OSHA program that, frankly, works 
better because it is closer to home. They know the industries. 
They know the issues that are facing their States better than 
the Federal Government.
    Is there a possibility or would the administration in any 
way consider encouraging States to develop their own OSHA type 
program rather than it coming straight from the Federal 
Government?
    Ms. Weichert. So I think it is a great idea, and I think it 
brings up a great point. We wanted this proposal to be the 
beginning of a dialogue that would be iterative and ongoing. 
That is how modern, flexible organizations adapt and ensure 
that they are aligned in the mission.
    I think there are many principles in here that really are 
asking questions about what should the Federal Government be 
doing and what are States and local governments better 
positioned to do. So we would welcome dialogue that is fact 
based and, you know, asking the right questions.
    Mr. Hice. So how would that dialogue best take place?
    Ms. Weichert. So we have already started some preliminary 
conversations with governors, and we have our intergovernmental 
affairs organization in the EOP, but we would welcome 
congressional involvement in essentially curating a 
conversation on those topics.
    Mr. Hice. Okay. Well, I would look forward to being part of 
that, that communication and that discussion.
    And Madam Chair, with that, I will yield back.
    Ms. Foxx. Thanks for yielding back.
    Mr. Clay, you are recognized for 5 minutes.
    Mr. Clay. Thank you, Madam Chair, and thank you, Ms. 
Weichert, for being here.
    You know, President Trump's reformed plan appears to be 
premised on the belief that reform requires structural 
reorganization, the merging or moving around of agencies and 
their employees, and I question whether that is truly necessary 
or whether reform can be accomplished without eliminating, 
merging, or moving agencies around.
    Let's take, for example, President Trump's proposal to 
merge the Departments of Education and Labor into a single 
agency to be called, and I quote, ``The Department of Education 
and Workforce.''
    The new name is very similar to the jurisdiction of the 
House Committee on Education and the Workforce. Ms. Weichert, 
was this similarly a factor that was considered in the 
President's plan?
    Ms. Weichert. Absolutely, and the fact that most OECD 
countries and countries like China actually organize in this 
way.
    Mr. Clay. Now you mentioned workforce development in your 
other colloquy. You know, that is one of the important missions 
of the U.S. Department of Labor. They retrain workers, they 
help stand up workers, they even job corps. It is all geared 
towards workforce development. How do you envision that once 
these two agencies are merged? Is it still going to be as 
robust?
    Ms. Weichert. I think it will be more robust. So one of the 
things--and getting to your first point of, is reorganization 
necessary to make change happen.
    Mr. Clay. Yeah.
    Ms. Weichert. I think it is a pivotal question and one that 
we thought deeply about. Organizational change is one tool 
among many, and so many of the proposals actually focused on 
places where change has been needed for some time, as 
highlighted by Government Accountability GAO studies and other 
concerns, and change hasn't happened, organization can be a 
tool that actually gets resources together, aligns priorities.
    As it relates specifically to the workforce, what we saw 
when we looked at, you know, whether it is 40 programs or 46 or 
47 workforce development programs, we saw a real mix in terms 
of quality and outcomes orientation. We saw a real mix in terms 
of evidence, evidence-based decisionmaking. What we are hopeful 
to do is that we can steward the resources associated with 
these various programs and focus them on the things that are 
driving the reskilling, driving the workforce development in 
ways that actually help the American worker that are easier for 
businesses to actually deal with as well, and ultimately get 
more Americans in the right jobs for the 21st century.
    Mr. Clay. You know--and thanks for that response, but some 
of my colleagues are quite skeptical of the President's plan 
and question the underlying motive or purpose. For example, 
Ranking Member Scott of Virginia called the plan, and I quote, 
``hastily concocted proposal that uses the false promise of 
streamlining to cut investments in our future.''
    Ms. Weichert, how do you respond to critics of the plan 
like Mr. Scott?
    Ms. Weichert. So, first thing, to anyone who wants to 
accuse us of being hastily--these plans are being hastily 
concocted, I would encourage them to read the whole volume and 
not just the thumbnail proposals in the back, including the 
bibliography and including the President's management agenda 
that really provides the context for the whole thing.
    I understand in Washington, you know, in a hyper political 
environment, questioning people's motives, but what I would 
like to ask people to do is judge us by our actions and judge 
us by results.
    Mr. Clay. But, look, there is one member of even the 
President's party who was quoted in the New York Times as 
saying that, one, that the proposal to move the $3 billion CDBG 
program from the Department of HUD to Commerce is just a first 
step to eliminating the program. He says the move to the 
Commerce Department was an attempt to strangle the program by 
removing it from HUD--career HUD official. How do you respond 
to that?
    Ms. Weichert. So, again, I can't--I can't have a 
conversation about motives. What I can say is that the 
proposals that we have, we believe have a fact base and merit, 
and we have attempted to showcase that in the report and in the 
bibliography. What I would say is reasonable people with 
expertise and passion may disagree, and it may be because they 
are informed by facts that we don't have.
    I would invite folks to actually, you know, meet us in the 
realm of public debate, bring the facts, bring the alternative 
proposals, and that is probably the most important thing I 
would say is we have attempted to create a holistic path 
forward. Is it perfect? Of course it isn't. Does it have 
elements of challenge and difficulty? Absolutely.
    But what we attempted to do was actually put together a 
plan that was a holistic vision, and to the extent people 
disagree with that, I absolutely welcome that debate, and I 
think folks who have spent time with me and spent time with our 
team realize we are genuine in having that debate.
    Mr. Clay. And my time is expired. Madam Chairwoman thank 
you.
    Ms. Foxx. The gentleman's time has expired.
    Mr. Palmer, you are recognized for 5 minutes.
    Mr. Palmer. Thank you, Madam Chairman. Good to see you, Ms. 
Weichert. I think the majority of members on both sides out of 
this committee understand the need to make some reforms in the 
Federal Government. We have had hearings on everything from 
mismanagement at the Veterans' Affairs, Social Security, 
cybersecurity, improper payments, and I can go on down the 
list. I mean, we are acutely aware that there are needs for 
reform.
    You said something in your testimony that the Federal 
Government operates much like it did 50 years ago. I have been 
acutely focused on how do we reduce improper payments, and it 
is a huge problem. It was $140 billion last year. Do you see 
the reforms as having a very positive impact on reducing 
improper payments?
    Ms. Weichert. I think, to the extent that we can get 
management oversight of like programs like money, it is going 
to improve general management efficiency. It is not the only 
way.
    Mr. Palmer. Also, the data systems, we can----
    Ms. Weichert. Absolutely.
    Mr. Palmer. The savings that you can generate from some of 
these reforms and reducing improper payments can go back in to 
replacing data systems.
    Ms. Weichert. Absolutely.
    Mr. Palmer. Which should really improve that area. You also 
mentioned the GAO's high risk list and that not every Federal 
agency has taken action to get.
    We know that from hearings here that not every agency has 
taken action. Will this effort to improve accountability from 
the Federal agencies, will this effort improve that?
    Ms. Weichert. That is absolutely one of the objectives.
    Mr. Palmer. Will it help increase our oversight and our 
effectiveness?
    Ms. Weichert. That is absolutely the goal.
    Mr. Palmer. I also want to get into an area that I think is 
of great importance, and that is the whole issue of 
infrastructure and the permitting process, and you mentioned in 
your testimony the need to reduce the permitting time.
    Madam Chairman, I would like to introduce a couple of 
reports into the record.
    Ms. Foxx. Without objection.
    Mr. Palmer. One is 2 years, not 10 years redesigning 
infrastructure approvals. It is from an organization called, 
``Common Good.'' And they make this point that a 6-year delay 
in starting construction on public projects costs the Nation 
over $3.7 trillion. That is more than double the $1.7 trillion 
that is needed to upgrade America's infrastructure through the 
next decade, and that is everything--that is rail service, 
water infrastructure, roads and bridges, inland waterways, 
power generation, power transmission.
    I really think that what you are trying to do and what this 
administration is trying to do in regard to infrastructure is 
critical. And to give you a more local example of that, I would 
also like to introduce this report into the record: Assessing 
the Costs Attributed to project Delays in Texas.
    Ms. Foxx. Without objection.
    Mr. Palmer. There was a rural road, a four-lane project, 
2.7 miles, it was delayed 33-1/2 months and the delay was 
$96,000 a month. That added $3.5 million to just a 2.7-mile 
rural road project in U.S. Highway 59 in Texas, 2.6 miles they 
were going to widen that stretch of road. A 5-year delay at 
$297,000 a month, that added $17.8 million to the project. And 
then I-10 and I-410 in the San Antonio area, adding an 
interchange, is 1.5 miles that was affected, it was delayed 11 
months at 447 a month. That added $5.1 million.
    We are literally throwing our infrastructure dollars down 
the drain with these delays, and if you would like to comment 
on that, I think the committee would be very interested in 
hearing your thoughts on how we are going to make these changes 
that will reduce the permitting delays.
    Ms. Weichert. I absolutely appreciate that, and reducing 
burden and actually increasing the economic output are 
definitely, you know, important missions that we have out of 
this plan.
    I think the Army Corps' proposal for the civilian work is a 
great example of just what you are talking about--very good 
intentions to preserve various people's rights around our 
waterways, to protect fish, lead to very complex, and you know, 
hard to navigate conflicting regulatory burden that make it 
very difficult to do improvement projects of any type, and I 
think that is an example of exactly what you are saying.
    Mr. Palmer. Well, one other point here. We have had 
hearings on cybersecurity breaches, particularly at the Office 
of Personnel Management, and one of the problems that we have 
is hiring highly qualified people. We have a program at the 
University of Alabama at Birmingham called the joint forensics 
research--I mean, ``The Center for Information Assurance and 
Joint Forensics Research,'' one of the top guys in the world 
running this.
    His students have a job before they graduate, but if they 
try to get a job with the Federal Government, it is months 
before they can even hear back from them. And I just wonder if 
part of this restructuring is going to enable us to hire the 
very best that is out there to work in the Federal Government 
on cybersecurity.
    If the chairman may--she may answer?
    Ms. Weichert. Thank you. So absolutely, and that is one of 
the key areas of why we wanted to elevate the OPM function 
because getting to the bottom of that challenge requires 
strategic emphasis and a real commitment at the top of the 
house.
    Mr. Palmer. So the bottom line is we have got to change.
    Ms. Weichert. Absolutely.
    Mr. Palmer. I thank the chairwoman for her indulgence, and 
I yield back.
    Ms. Foxx. The gentleman's time has expired.
    Ms. Plaskett, you are recognized for 5 minutes.
    Ms. Plaskett. Thank you, Madam Chairwoman. Good afternoon. 
Ms. Weichert, I wanted to ask you a couple of questions about 
the implementation if this plan takes place.
    The executive order advised for looking for opportunities 
for the private sector to take over some of these government 
functions. We have heard discussion about post office and air 
traffic control. What other agencies or areas do you think that 
privatization might be appropriate?
    Ms. Weichert. So the other place that I think has gotten a 
lot of attention, not just now but practically in every 
administration in recent history, is around the Tennessee 
Valley Authority. Our proposal is a fairly narrow proposal 
around transmission assets, looking at, you know, whether the 
Federal Government really needs to be in the business of 
providing the transmission of power.
    Ms. Plaskett. Okay. And in discussing the privatization or 
even the merging of these businesses, how much input was given 
to those career individuals, civil servants? Was discussion had 
with them about how this implementation might affect the civil 
service?
    Ms. Weichert. So the agencies were absolutely involved in 
providing bottoms-up feedback as part of a process that took 
place between June and December of last year. Some of the 
proposals that resulted out of that were included in the 
February release of the 2019----
    Ms. Plaskett. When you say bottom-ups, what specifically?
    Ms. Weichert. So as I mentioned in my opening statement, we 
did the analysis in three phases. We did a data collection 
phase that included bottoms-up input from agencies and from 
public comment. We got 106,000 public comments.
    Ms. Plaskett. When you say ``from agencies,'' do you mean 
the employees or the management of the agency?
    Ms. Weichert. Presumably, both.
    Ms. Plaskett. How do you know presumably?
    Ms. Weichert. So in almost every case, the proposals 
required a depth of knowledge that require that the civil 
servant population had to participate in the----
    Ms. Plaskett. So in the outside--the comments, you said 
that you also received public comments.
    Ms. Weichert. Correct.
    Ms. Plaskett. Did you receive public submissions or 
submissions from employee unions?
    Ms. Weichert. I can't say for sure whether those were 
included in the public comments.
    Ms. Plaskett. Did you seek out the unions' input in these 
discussions.
    Ms. Weichert. So we--the requests for comment was generally 
made public after the executive order so----
    Ms. Plaskett. But did you engage the unions as a whole? 
Specifically, did you engage the unions?
    Ms. Weichert. Specifically, no. As I indicated earlier, one 
of the reasons we did the deliberation the way we did is, in 
the recent past, no reform effort--despite the fact that there 
have been reform efforts and reorganization efforts proposed in 
every administration, no reform effort has successfully moved 
forward with the exception of one that took place after 9/11, 
precisely because entrenched interests essentially negotiated a 
way around----
    Ms. Plaskett. I didn't ask you if you were negotiating. I 
just asked you if you requested from them their comments or 
their positions?
    Ms. Weichert. We requested public comment.
    Ms. Plaskett. But not specifically from unions.
    Ms. Weichert. Not specifically from anyone individually.
    Ms. Plaskett. Now that, you know, you are talking about a 
negotiation, which would be the implementation of the process.
    Ms. Weichert. Correct.
    Ms. Plaskett. Would you be engaging--and I would assume, 
how would you engage the unions because they would need to be 
engaged in the implementation, which then becomes this 
discussion that you were talking about just a moment ago.
    Ms. Weichert. Yeah, absolutely, and this is something that, 
you know, we released the plan last week. We are--you know, 
this is the first truly public conversation we are having, but 
we anticipate having many public conversations. And what I 
would say is there are great examples in the not too distant 
past of where unions and management of a variety of ilks have 
gotten together and looked at, you know, how do we achieve the 
mission of our business, serve the customers----
    Ms. Plaskett. So I am assuming then that you are going to 
engage those. Is that what you are saying?
    Ms. Weichert. Absolutely. Yes.
    Ms. Plaskett. So when you talk about influencing the plan, 
you said that, you know, you discussed bottoms up, you also 
asked for public comment. You did not necessarily speak 
specifically to the unions about this. Were there other outside 
groups that you spoke with? Were there think tanks or others 
that supported your ideas?
    Ms. Weichert. We didn't speak to anyone. As I mentioned 
again, there were three phases to our----
    Ms. Plaskett. I heard the three phases. I am just asking 
did you speak to them?
    Ms. Weichert. The second phase involved looking at things 
in the public realm, including GAO reports. We looked--our 
bibliography on page 128 of the report articulates all of the 
knowledge----
    Ms. Plaskett. So did you engage the Heritage Foundation who 
has specific reports about this?
    Ms. Weichert. There is a Heritage Foundation report that 
was reviewed as part of this.
    Ms. Plaskett. And what would be the name of that report?
    Ms. Weichert. It is on----
    Ms. Plaskett. If you could get that back to me, I would 
appreciate that.
    Ms. Weichert. Absolutely.
    Ms. Plaskett. Ms. Chairwoman, I would ask to insert into 
the record an article from the New York Times entitled: ``How 
One Conservative Think Tank is Stocking Trump's Government. By 
placing its people throughout the administration, the Heritage 
Foundation has succeeded in furthering its right-wing agenda.''
    Ms. Foxx. Without objection, and the gentlewoman's time has 
expired.
    Ms. Plaskett. Thank you.
    Ms. Foxx. Thank you.
    I will recognize myself for 5 minutes.
    As the chairwoman of the Education and Workforce Committee, 
I take our oversight responsibilities very seriously with 
respect to the worker protection agencies within the Department 
of Labor, evidenced by the many hearings and other oversight 
actions we have conducted during this Congress.
    Under the Trump administration's reorganization proposal, 
Labor Department worker protection agencies, such as the 
occupational safety and health administration and the wage and 
hour division would be housed within the, quote, 
``enforcement,'' end quote, agency at the newly created 
Department of Education and the Workforce.
    Would this enforcement agency continue the administration's 
approach of providing needed compliance assistance while also 
effectively enforcing the laws, and do you foresee any impacts 
on the enforcement of worker protection laws because of the 
proposed realignment?
    Ms. Weichert. So the answer is: There are no changes in 
direction in terms of compliance and enforcement support, and 
the goal would be to continue to provide that support at the 
highest level.
    Ms. Foxx. Thank you. You said the proposal was built around 
mission and purpose, and this proposal seems to focus better 
the work of the agencies when it comes to helping students, job 
seekers, and employers.
    By having a seamless approach to programs for students 
pursuing postsecondary and continuing education from one office 
in bringing the programs focused on elementary and secondary 
schools into another, do you expect it will be easier for 
students, families, school officials, and employers to find the 
resources and guidance they need to improve and/or provide a 
better educational opportunity for students?
    Ms. Weichert. That is absolutely the objective.
    Ms. Foxx. Thank you. What safeguards would be in place to 
ensure students will not lose valuable protections, especially 
for students from vulnerable groups in the restructuring of 
these offices?
    Ms. Weichert. So it is a great point, and disability 
employment, OSHA, mine safety, office of civil rights, none of 
those are expected to change at all under this proposal.
    Ms. Foxx. And we appreciate that, and I assume you will 
want to work with the Congress and the relevant stakeholders to 
maintain those protections. I think it is important for the 
administration----
    Ms. Weichert. Absolutely.
    Ms. Foxx. --to assert that.
    Ms. Weichert. Yes, we absolutely assert that we believe 
that the oversight responsibilities of Congress are paramount.
    Ms. Foxx. Thank you. To what extent did OMB ensure that GAO 
and Inspector General reports and recommendations were fully 
considered in developing the crosscutting proposals?
    Ms. Weichert. So they were very important in considering 
the crosscutting proposals. As I mentioned earlier, 
reorganization is one tool among many, and we wanted to look at 
those things where there were known problems and intractable 
problems that did not seem to get traction without a 
reorganization purpose, and so much of the thinking really was, 
you know, where are there places where time and time again has 
GAO said this is a problem.
    Ms. Foxx. You have indicated several times that this is 
right in the beginning stages.
    Ms. Weichert. Correct.
    Ms. Foxx. But has the--how does the administration propose 
Congress address authorizing the government reform plan 
proposals which require congressional action if you have such 
plan already?
    Ms. Weichert. So what we are planning to do this summer--so 
we were genuine about saying this is a framework and a plan but 
that we need to engage with key constituencies, especially 
Congress but also other stakeholder groups, including unions 
and civil servant--service representatives. And so, over the 
course of the summer, we will be working with agencies. I am 
very happy to take feedback and input on highlighting what is a 
proposed implementation construct and what would require 
legislative input, what could be proceeded with 
administratively, and then what would be expected to be in the 
2020 budget.
    Ms. Foxx. And the last question. If the administration 
believes the proposal does not need congressional approval, can 
you commit to notifying Congress in advance of any proposed 
action so we can evaluate to propose change?
    Ms. Weichert. So what we can do is commit to the dialogue 
around all of these proposals and incorporate the feedback and 
the insights from the people who have oversight over those.
    Ms. Foxx. Thank you very much.
    Mr. Sarbanes, you are recognized for 5 minutes.
    Mr. Sarbanes. Thank you, Madam Chair. Thank you for being 
here today, Ms. Weichert. I want to thank you for your 
testimony.
    My understanding is that part of the proposal would be to 
eliminate OPM or absorb its functions into the executive office 
of the President. Is that correct? Can you explain that a 
little bit more?
    Ms. Weichert. Sure. So the proposal is not to eliminate 
OPM. It is actually to take and follow leading practice for 
modern human capital management and take the administrative 
transaction processing, essentially the paperwork functions, 
and move them into shared services context, and then focus the 
efforts of the core human capital elements of the organization, 
focus those more strategically on workforce needs for the 
future, reskilling, redeploying civil service reform, and 
elevating that into the executive office of the President, 
ensuring it gets the right level of attention, resources, and 
priority.
    Mr. Sarbanes. So let me express the concern I have. From 
what I can gather, looking at the way the executive office of 
the President has operated, there is a real kind of partisan 
edge to it.
    There is plenty of evidence of a kind of ethical blindness, 
which has afflicted the office overall, which is a bad 
combination, politicizing things, being overly partisan, not 
observing ethical boundaries, transparency, accountability, you 
put all that together, and it can really undermine and corrode 
the effectiveness of government.
    Mr. Sarbanes. And what I worry about is pulling more 
functions and key decisions around how human resources are 
deployed across the Federal Government and all of its various 
agencies, pulling that into an environment where you've got 
this kind of partisan politicized outlook, where there's--
there's these examples of not observing transparency 
accountability, ethical norms, et cetera, which could just make 
the overall situation that we see even worse.
    So I'm extremely concerned about the potential for this 
reorganization to the extent some of the human resources 
decisionmaking is being into a place that has that edge to it, 
how that will ripple through. So what I'd like you to address 
is, you know, how are you going to have safeguards?
    What kind of safeguards will be in place to prevent 
nepotism, because we've definitely seen that, operating close--
in the close quarters of the White House and the executive 
office, to safeguard against political patronage in the 
executive branch, and others things like that, which, frankly, 
undermine the confidence of the public in government's ability 
to act on the public's behalf and in the public interest, 
rather than to act to serve special interests or insiders or 
what have you.
    So what kind of safeguards are there going to be in place 
to address that potential concern?
    Ms. Weichert. So I appreciate the question. I think it's a 
fantastic question. And it's actually one that has good 
precedent.
    So the office I run--so deputy director for management has 
responsibility for a range of functions that expand across the 
Federal Government, around IT, around--so the Federal CIO is in 
my office. The Comptroller of the United States is in my office 
and is responsible for finance and accounting policy, 
procurement policy. The Office of the Federal Procurement 
Policy administrator is in my office. And Congress has actually 
put in safeguards around those key functions and elevated them 
into the Executive Office of the President precisely so that 
they can get the attention that Congress over time has felt 
it's needed.
    The lack of an office of equivalent heft in the EOP for 
people is actually in some ways conspicuous by its absence. I 
mentioned earlier that most OECD countries have people up there 
with IT, with finance, accounting and----
    Mr. Sarbanes. Okay. Well, thank you. I'm still nervous, 
because you take functions of heft and you put them in a place 
where ethical boundaries are ignored on a daily basis, And I 
think it complicates the situation.
    Ms. Weichert. I push back, though--I appreciate, absolutely 
appreciate the concern. What I would say is if you could--and 
I'd be happy to talk to you more about your concerns. But when 
it comes to the functions that are already there, we have a 
range of vehicles, including performance.gov, data.gov, and 
other vehicles to ensure not less, but more accountability and 
oversight. We work very closely with the congressional 
committees that have oversight----
    Mr. Sarbanes. Well, then I'd just ask you to work harder at 
that, because I'm not necessarily seeing the results that 
you're suggesting when it comes to observing accountability and 
transparency and all.
    I'll yield back my time. Thank you.
    Ms. Foxx. The gentleman's time has expired.
    Mr. Raskin, you're recognized for 5 minutes.
    Mr. Raskin. Thank you very much, Madam Chair.
    Welcome, Ms. Weichert. I notice you're planning to 
reorganize a whole bunch of departments, from the Postal 
Service to OPM, but curiously absent on the list was the 
Department of Defense, which has a $700 billion budget. And our 
committee has seen a report just a couple of years ago saying 
$125 billion could be saved in efficiency. So I'm just 
wondering why it's missing.
    Ms. Weichert. So we looked at the areas where, again, 
mission, service, and stewardship were having the most 
challenges in moving forward. I absolutely appreciate the 
concerns. And we did look at GAO studies in that realm.
    In order to focus this activity, we wanted to look at those 
things where we had enough information, we had the ability.
    Mr. Raskin. Okay. I'm going to get you this report. You 
check it out. There's about $125 billion that could be saved 
almost overnight by improving efficiencies there.
    I represent Maryland's Eighth Congressional District, which 
is home to more than 88,000 Federal employees who've come under 
some harsh rhetorical treatment by this administration, but 
also some attacks on their pay and benefits. And also, I hear 
regularly from Federal employees who love their jobs and love 
the country, as do you, and you're committed to your government 
job, whose mission has been interfered with for political 
reasons, they believe.
    And I'm wondering, what are you doing now or what are you 
hoping to do in the future to protect the Federal workforce, 
the integrity of the civil service, and to prevent corruption 
by political interference?
    Ms. Weichert. So I think it's a great question. And again, 
I will say it as many times and as many ways as I can, that it 
is enlightened self-interest for us as the largest enterprise 
employing people to really understand and internalize the 
importance of the Federal worker to the----
    Mr. Raskin. Cool. So that's your value, but do you have any 
specific actions that you're taking to protect the Federal 
workforce today?
    Ms. Weichert. Absolutely. So one of the cross-agency 
priority goals that was released in the President's Management 
Agenda is looking explicitly at people in the workforce in the 
21st century and the civil service reforms we need to do that. 
And we're focusing very heavily on the areas where the 
employees themselves have said that, you know, the merit 
systems principles that were enshrined in the 1978 Civil 
Service Reform Act where they are not actually being aligned 
with----
    Mr. Raskin. If I could, I've got to cut you off there 
because I've got a few more questions, but I'd love to hear 
more specifics from you about that.
    Ms. Weichert. Absolutely
    Mr. Raskin. The administration's been rolling back proudly 
workplace, consumer, and environmental protections deemed to be 
overly intrusive. For example, Mr. Mulvaney has ordered that 
the Consumer Financial Protection Bureau drop enforcement 
against payday lenders. Do you have any plans to somehow honor 
the commitment of the CFPB to protect borrowers in the wake of 
that announcement?
    Ms. Weichert. So I am not involved in the activities of the 
CFPB.
    Mr. Raskin. Okay. Similarly, you might not be involved in 
this one. What about in the area of HUD? Do you have any plans 
to follow through on HUD's commitment to fair housing in the 
wake of the administration's nullification of the fair housing 
rule that had been promulgated to address patterns of 
discrimination and segregation?
    Ms. Weichert. So I can't comment on that specifically.
    Mr. Raskin. I saw yesterday, there's a rule called the hog 
carcass cleaning rule which says, quote: All hair, scurf, and 
dirt, including all hoofs and claws, shall be removed from hog 
carcasses and the carcasses thoroughly washed and cleaned 
before incision is made for evisceration or inspection.
    This is for food protection. Sounds like a pretty good idea 
to me. But the Department of Agriculture just posted its intent 
to repeal this rule last month. Do you know how that particular 
mechanism of deregulation would work to protect consumers or is 
that being done at the behest of the slaughterhouse operators?
    Ms. Weichert. I am not familiar with that.
    Mr. Raskin. Okay. Can you tell us what the role of The 
Heritage Foundation was in the development of this plan?
    Ms. Weichert. So there was no specific involvement, other 
than the review of the materials that are listed on----
    Mr. Raskin. Do you know of anything that The Heritage 
Foundation recommended that was not incorporated in the final 
plan?
    Ms. Weichert. I don't have the plan in front of me, but if 
you actually compare our document and the document that we 
reference, there's a significant difference.
    Mr. Raskin. Okay. I didn't see it, but thank you very much. 
I appreciate it.
    Ms. Weichert. It's page 128 of the report.
    Mr. Raskin. I'll check it out. Thank you.
    Ms. Foxx. The gentleman's time has expired.
    Mr. Scott, you're recognized for 5 minutes.
    Mr. Scott. Thank you, Madam Chair, and I thank you for your 
courtesies.
    Ms. Weichert, I agree with you that you shouldn't question 
people's motives in legislation. But in this case, isn't it 
true that many Republicans have run on platforms that include 
the total abolition of the Department of Education?
    Ms. Weichert. So I'm not aware of anyone specifically. If 
there's information, I'd be happy to look at it.
    Mr. Scott. You're not aware of any Republican who's run on 
a platform that included the abolition of the Department of 
Education?
    Ms. Weichert. So I'm a management consultant who came to 
Washington in August of last year. I haven't spent my time 
focused on the political realm. What I've spent my time looking 
at is how to drive transformational change----
    Mr. Scott. Okay. Well, let me just say that a lot of 
Republicans have run on that platform, and so you have to 
understand why there's skepticism----
    Ms. Weichert. Absolutely.
    Mr. Scott. --when you want to merge. And some think it's 
submerge the Department of Education.
    The Department of Labor is essentially law enforcement at 
its core. It enforces wage and hour, it enforces OSHA, labor 
standards, like unfair labor practices; basically a law 
enforcement agency. A very small portion is in job training and 
unemployment situations. Education is education policy.
    You see the difference in their missions when you look at 
their civil rights focuses. You're aware that the Department of 
Education, when you say civil rights, you're talking about 
Brown v. Board of Education, desegregation, equity in 
education, rights of disabled students, disparities in 
discipline. And when you talk civil rights in the Department of 
Labor, you're talking about affirmative action, and contracts, 
implementing the Janus decision that just came down today, 
employment discrimination, and things like that.
    How would a civil rights division of this combined thing 
actually operate?
    Ms. Weichert. So I think that is one of the areas where we 
would look forward to working with the Oversight Committee on 
the operationalization of this. Most of the enforcement 
components were going to simply be moved as they were and then 
look at if there were synergies going forward.
    To the extent the missions are distinct, and particularly 
the skill sets or the core needs or the players involved are 
different, that is absolutely a reason you could have 
organizationally distinct activities. But our belief is that 
there probably are some synergies to the extent enforcement 
involved a range of like skill sets. Whether it's law or 
compliance, that would be something to look at.
    Mr. Scott. Is this expected to save any money?
    Ms. Weichert. So the vision for all of these things is to, 
at a minimum, improve mission and service and not cost any 
more. The goal in a perfect world would also save money, but 
that----
    Mr. Scott. But you don't expect to not necessarily save any 
money. One of the rationales was overlapping workforce 
programs. When we passed the Workforce Innovation and 
Opportunity Act in 2014, we thought we had taken care of the 
unnecessary overlaps. Can you name any programs that are still, 
quote, duplicative?
    Ms. Weichert. So I would submit that if there are 40 
workforce development programs or 46 or 47, that there would be 
duplication among those.
    Mr. Scott. Can you name the ones that are duplicative?
    Ms. Weichert. I cannot.
    Mr. Scott. Can you say a word about what would happen in 
the school nutrition programs from a public school perspective? 
I know we have the school lunch program and one agency. Most of 
the child nutrition programs are under Agriculture and they are 
going to be moved around. Can you say from a school perspective 
what's going to happen?
    Mr. Cummings mentioned WIC and other programs kind of moved 
around.
    Ms. Weichert. So only SNAP and WIC, which are near-cash 
programs, would be proposed for moving. All of the commodity 
assistance programs, particularly as it relates to school 
lunch, would remain as is.
    Mr. Scott. And would--this Child and Adult Care Food 
Program moves to the Department of Health and Human Services?
    Ms. Weichert. So, again, the SNAP program and the WIC 
program would move to HHS.
    Mr. Scott. And how would that operate in a school system? 
Like an afternoon snack program.
    Ms. Weichert. So, essentially, the programs that would move 
to HHS are the near-cash programs that are largely administered 
by States and local entities. And what this would essentially 
do is streamline the provision of resources, the dollars from 
the Federal Government to those agencies that actually 
administer them. So presumably, it would make the job of anyone 
whose doing that administration at a State or local level 
easier.
    Mr. Scott. Thank you, Madam Chairman.
    Ms. Foxx. Thank you, Mr. Scott.
    I'm now prepared to make some closing comments.
    Ms. Weichert, I want to thank you very much for the 
excellent presentation that you made and the superb way in 
which you have handled the questions, and some animosity, it 
appeared to me, directed at you, which I think was 
inappropriate, but I appreciate very much.
    And I read the paragraph given to us about you. And I can 
understand that you are a consummate professional. And I think 
we are extraordinarily fortunate to have had someone with your 
experience come in and help shepherd this study that was done 
and be able to explain it to us. I will compliment Director 
Mulvaney very highly for having the good sense to bring you in 
to work with him on this project.
    I particularly appreciated the fact that you kept coming 
back to mission, service, and stewardship as your guiding 
principles. I do think that--we do that with the committee too. 
When we propose legislation, we outline what our principles are 
in putting forward the legislation and make sure they are like 
a North Star for us. And I believe you have come up with three 
very, very good ways to anchor what it is you've done.
    I think, again, many of the comments and questions that 
were directed to you were not in your bailiwick to answer and I 
appreciate, again, the way you handled that.
    I believe that we here have a great responsibility to spend 
hardworking taxpayer dollars as well as we can spend them. We 
are taxing the American people at a very high rate, in my 
opinion. And when we take on a responsibility to do something 
for the American people here at the Federal Government level, 
then I think we need to be doing the best we can.
    And the world is changing, and it's changing rapidly. And 
again, with your background in information technology and other 
areas, you see that. Unfortunately, I think people who get 
entrenched in government jobs, who get entrenched in elected 
office, sometimes cannot see what is happening out there in 
terms of change and the need to change that.
    I heard you say one of your missions is to have the Federal 
Government better serve the public. That should be the mission 
of all of us here. And if it requires change with an 
organization, then we should be out there joining you in saying 
this needs to be changed.
    I've always believed we should sunset every piece of 
legislation that passes here. That would help us gain much 
better control over making the adjustments that need to be made 
every 3 years, every 5 years, whatever, instead of having to 
wait for these reports to be done and these studies to be done 
periodically, and then have agencies be very defensive because 
they do not want to make the changes that are necessary. I 
think they forget, people in the agencies, often why they are 
here. They think the public is here to serve them. We are here 
to serve the public.
    I also want to thank you very much for emphasizing that 
this is the beginning of a conversation which Congress should 
engage in and not just discount out of hand the kinds of 
comments you made because the motives are questioned. I think 
you did an excellent job of representing the administration. 
And I realize you came into the administration, I believe from 
the comments, to specifically do the thing that you have done 
and that you do not have a political agenda. And I appreciate 
that very much.
    If the Federal Government does not make the kinds of 
changes that you all are recommending here and many, many more, 
we are failing the American people. And the American people, I 
believe, will hold us responsible for that, and they should 
hold us responsible for it. Again, and I think what we are 
seeing--while I don't like the vitriol that's going on, I think 
that there are people out there very frustrated because the 
Federal Government is not doing its job. In some cases, it's 
doing jobs it has no business doing, and we need to sort those 
things out better.
    So I want to thank you very much for the excellent 
presentation and for the way that you have responded to members 
today in a very open and fair and honest way.
    I would like to take a point of personal privilege and 
recognize Nathaniel Wallace and his parents, who are here. 
Nathaniel is the art competition winner for the Fifth District 
of North Carolina. And I'm a little late for my appointment 
with Nathaniel and his parents, as they're going to go over to 
the reception for the art competition winners who are here in 
town today.
    I'm sure, Mr. Scott, you want to mention yours?
    Mr. Scott. Yes. Right over here. Please stand.
    Thank you.
    Ms. Foxx. Great. We're glad to have both of you all here. 
And I appreciate Mr. Scott speaking up.
    So again, I thank you for being here today, Ms. Weichert.
    The hearing record will remain open for 2 weeks for any 
member to submit a written opening statement or questions for 
the record. And if there is no further business, without 
objection, the committee stands adjourned.
    [Whereupon, at 12:21 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               
               


                                 <all>
</pre></body></html>
